<html>
<title> - PREVENTABLE VIOLENCE IN AMERICA: AN EXAMINATION OF LAW ENFORCEMENT INFORMATION SHARING AND MISGUIDED PUBLIC POLICY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  PREVENTABLE VIOLENCE IN AMERICA: AN EXAMINATION OF LAW ENFORCEMENT 
            INFORMATION SHARING AND MISGUIDED PUBLIC POLICY

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 20, 2018

                               __________

                           Serial No. 115-53

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available via the World Wide Web: http://judiciary.house.gov
     
     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-788                       WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a> 

     
     
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama                 VALDEZ VENITA ``VAL'' DEMINGS, 
MATT GAETZ, Florida                      Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

           F. JAMES SENSENBRENNER, Jr.,  Wisconsin, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
TED POE, Texas                       VALDEZ VENITA ``VAL'' DEMINGS, 
TREY GOWDY, South Carolina               Florida
JOHN RATCLIFFE, Texas                KAREN BASS, California
MARTHA ROBY, Alabama                 CEDRIC L. RICHMOND, Louisiana
MIKE JOHNSON, Louisiana              HAKEEM JEFFRIES, New York
JOHN RUTHERFORD, Florida             TED LIEU, California
                                     JAMIE RASKIN, Maryland
                                
                                
                                CONTENTS

                              ----------                              

                             MARCH 20, 2018
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     4
The Honorable F. James Sensenbrenner, Wisconsin, Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations, Committee on the Judiciary.....................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations, Committee on the Judiciary.....................     3

                               WITNESSES

Mr. David Bowdich, Deputy Director, Federal Bureau of 
  Investigation, Panel I
    Oral Statement...............................................     8
Mr. Timothy Carter, Sheriff, Shenandoah County, Virginia, Panel 
  II
    Oral Statement...............................................    34
Mr. Max Eden, Senior Fellow, Manhattan Institute, Panel II
    Oral Statement...............................................    35
Ms. Kristen Harper, Director for Policy Development, Child 
  Trends, Panel II
    Oral Statement...............................................    37

 
  PREVENTABLE VIOLENCE IN AMERICA: AN EXAMINATION OF LAW ENFORCEMENT 
            INFORMATION SHARING AND MISGUIDED PUBLIC POLICY

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                        House of Representatives

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Jim 
Sensenbrenner [chairman of the subcommittee] presiding.
    Present: Representatives Sensenbrenner, Gohmert, Goodlatte, 
Chabot, Poe, Gowdy, Ratcliffe, Roby, Johnson of Louisiana, 
Rutherford, Jackson Lee, Nadler, Richmond, Lieu, and Raskin.
    Staff Present: Jason Cervenak, Counsel; Scott Johnson, 
Professional Staff Member; Joe Graupensperger, Minority Chief 
Counsel; Monalisa Dugue, Minority Deputy Chief Counsel; 
Veronica Eligan, Minority Professional Staff Member; and Mauri 
Gray, Minority Crime Detailee.
    Mr. Sensenbrenner. The subcommittee will come to order and, 
without objection, the chair is authorized to declare recesses 
of the subcommittee at any time. The topic of today's hearing 
is ``Preventable Violence in America: An Examination of Law 
Enforcement Information Sharing and Misguided Public Policy.'' 
And I now recognize myself for an opening statement.
    Last month, we had one of the most horrific and tragic 
school shootings in the history of this country. This was a 
preventable tragedy. And it was a preventable tragedy because 
law enforcement missed a whole lot of tips that Nikolas Cruz 
was a bad person and actually put up on the internet the fact 
that he wanted to become a professional school shooter.
    And there have been misguided policies where people who are 
disruptive at school end up not being arrested or charged with 
a misdemeanor, even though that is what they have committed, 
and nothing gets put on their record and nothing would end up 
getting put into the National Crime Information file or the 
NICS system.
    Today, we are going to examine information sharing among 
State, local, and Federal law enforcement entities. 
Additionally, we will look at the poor public policy decisions 
that have led to unacceptable and disastrous consequences for 
our Nation's K-12 students. I hope that today's hearing sheds 
light on these issues and will help Congress and the public 
better understand these important matters.
    We know that law enforcement was called to the residence of 
Nikolas Cruz at least 39 times in the years leading up to the 
Parkland shooting. Despite these numerous visits for such 
matters as domestic violence and assault, the mentally-ill Cruz 
was never arrested. In one instance of February of 2016, a 
Broward County deputy responded to the Cruz home because a 
neighbor called police after seeing an alarming Instagram post 
that suggested that Cruz might plan to shoot up the school. The 
deputy passed the information along to the school resource 
officer, Deputy Scot Peterson. It is unclear what Peterson did 
with that information.
    There were numerous other opportunities for local law 
enforcement to step in and possibly alter the course of events 
in this situation. Documents in Cruz's criminal case also show 
that the school officials and a sheriff's deputy recommended, 
as of September 2016, that Cruz be involuntary committed for a 
mental evaluation. Doing so would have prevented him from 
legally obtaining a firearm.
    Fast forward to January of this year. On January 5th, the 
FBI tip line received a call from a woman close to the Cruz 
family. In very specific detail, the caller described Cruz and 
his violent behavior as well, explicitly stating, ``He is 
thrown out of all these schools because he would pick up a 
chair and throw it at somebody; a teacher or a student, because 
he did not like the way they were talking to him. Um, I just 
think about it. You know, getting into a school and just 
shooting the place up.''
    We now know this information was not forwarded to the Miami 
Field Office or to local law enforcement officers. 
Unfortunately, this was not the only missed opportunity for the 
FBI to intercede before Cruz acted. In September of last year, 
the FBI received a tip from a Mississippi man who posts videos 
on YouTube. A comment had been left on one of his videos under 
the username Nikolas Cruz in what is now an undeniably menacing 
prediction that said, ``I am going to be a professional school 
shooter.''
    While the FBI did look into this case, it was closed by 
October. While it was known that the call screener at the tip 
line was aware of the previous investigation, it is unclear if 
the supervisory agent was made aware of the previous 
investigation. Imagine if the FBI had been made aware of 
numerous previous interactions between law enforcement and 
Nikolas Cruz. The tragic outcome may have turned out very 
different.
    The question needs to be asked why Cruz was never placed 
under arrest, either at school or at home. He clearly had a 
violent past, a past that as properly handled by law 
enforcement would have prohibited him from purchasing or 
possessing a firearm. Despite committing a string of arrestable 
offenses on public school property, Nikolas Cruz was able to 
pass a background check and purchase the weapon that he used to 
slaughter 17 people. This hearing will also touch on the role 
of a 2014 Federal guidance may have played.
    Broward County Public Schools, the sixth largest school 
system in the country and home to Parkland's Marjory Stoneman 
Douglas High School, where the school shooting took place, was 
one of the first school districts to rewrite its discipline 
policy based upon this guidance. The new policy made it much 
more difficult for administrators to suspend or expel problem 
students or for campus police to arrest them for misdemeanors, 
including some of the crimes Cruz allegedly committed in the 
months and years leading up to the deadly February 14th 
shooting.
    I want to thank the witnesses for appearing before us today 
and I look forward to your testimony. And I now recognize the 
ranking member of the subcommittee, the gentlewoman from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. The first thing I would like to do is to 
thank the chairman for his courtesies. We have worked together 
for a long time. We have a leadership Democratic Caucus meeting 
and a number of issues were being raised, including the horror 
of a recent school shooting this morning at St. Mary's school 
in Maryland.
    Certainly, we have experienced some unfortunate 
circumstances with a member and a number of these issues were 
discussed. And maybe we can put in place a 10:30 a.m. start 
time. But the chairman's courtesy is very much appreciated 
again, and I wish to thank him.
    Let me acknowledge the ranking member of our committee as 
present today along with members, Ms. Demings, Mr. Lieu, Mr. 
Raskin, and others are coming. Because whenever we have an 
opportunity to be corrective, I think it is crucial.
    And so, before we start, Deputy Director, my question to 
you is my opening statement. I certainly will be looking for 
answers on best practices. I take note of the fact and hope in 
your statement that you will acknowledge that there were 
investigations of these calls.
    I think members need to understand how those investigations 
resolved. But you will not find from me the opportunity or take 
the opportunity to bash or to charge conspiracies and attribute 
to the DOJ or the FBI conspiracies against the President or 
anyone else. I think we have to solve these problems.
    Secondarily, let me be very clear. During my questioning, I 
will submit a letter from the Congressional Black Caucus, 
because if anyone attempts to diminish this whole idea of how 
we address bad behavior kids--nonviolent, bad behavior kids--I 
would argue that Douglas School had their own process.
    Douglas also had its own recommendation from the disgraced 
officer and others that Mr. Cruz be forcibly committed. The 
local authorities did not do anything, and we might want to 
find out why that was the case.
    These procedures put in previously by President Obama's 
Department of Education was, in fact, to address how we deal 
with these individuals, clearly, and to have zero policy for 
misbehavior but not have a disparate treatment of minority 
youngsters which I have seen in living proof Latinos and 
African Americans. I am saddened that we have not had a hearing 
in the middle of the crisis on the Austin bombing. So, I will 
ask you a question about that.
    And as well, I am saddened that it has been more than 72 
hours and we have not noticed a hearing on the unfortunate but 
really dastardly circumstances of the Cambridge Company that is 
dealing with secured information from millions and millions of 
Americans to influence and skew the election toward Donald 
Trump. And to find out what the relationship was with Facebook 
and why we do not have the call for a full committee hearing 
with Mr. Zuckerberg here, as the Senate has done. And I have 
asked for that full hearing.
    So let me be very clear. There are many issues that we 
have. We need to nurture and embrace our students across the 
Nation. We need to applaud them for their courage. And they 
know the truth. It is gun violence. It is raising the age. It 
is stopping bump stocks. It is banning assault weapons. It is 
universal background checks.
    It is not talking about a policy offered by Mr. Obama who 
has become the appropriate whipping boy--if you will--whipping 
stick for anything that has gone wrong in this Nation. So, let 
me publicly say, he is responsible for much of what is good in 
this Nation, including our economy. And as I understand, we can 
all look at ourselves and account for how we can do better.
    I will be posing my questions to you on that basis: how we 
can do better. But I will not yield and lend myself to the 
ideas of controversy about law enforcement who work very hard. 
And having been a former judge, I will not yield and lend 
myself to the idea of conspiracies that the FBI and 
conspiracies at the DOJ, so that we cannot get our work done.
    I thank the chairman for his kindness, and I yield back and 
ask unanimous consent to put my entire statement in the record.
    Mr. Sensenbrenner. Without objection.
    I now recognize the chairman of the full committee, Mr. 
Goodlatte of Virginia.
    Chairman Goodlatte. Thank you, Mr. Chairman. At the outset, 
I would like to welcome all the witnesses and thank them for 
their testimony today. I want to recognize in particular my 
friend, Sheriff Tim Carter of Shenandoah County, in my 
congressional district. Sheriff Carter has served the men and 
women of Shenandoah County since 2003 and has done so with 
great honor and distinction. Sheriff, I am very glad to see you 
here today.
    Today's hearing focuses on information sharing between 
Federal, State, and local law enforcement, and public policy 
decisions that have resulted in less information being known to 
law enforcement about potentially violent juveniles.
    In the wake of the tragic and senseless attack on the 
students and faculty of Marjory Stoneman Douglas High School in 
Parkland, Florida on February 14, by Nikolas Cruz, a narrative 
of failures by law enforcement at all levels has emerged. We 
must examine what information law enforcement had concerning 
Cruz and what was done with that information.
    However, we must also examine how a troubled youth like 
Cruz, with a disturbing history of deviant behavior and ample 
signs of mental instability, would have a spotless criminal 
record, allowing him to purchase multiple weapons. Given the 
Obama-era mandates for schools to reduce the school-to-prison 
pipeline by arresting fewer students, the frightening question 
is how many other Nikolas Cruzes are there out there? The FBI 
has briefed members and staff of this committee in detail 
regarding the tips the FBI received regarding Nikolas Cruz.
    The FBI told us that it has initiated internal 
investigations of the handling of both tips--the internet tip 
from September 2017 and the phone call from January 2018--and 
will report the results of its investigations to us once they 
are complete. The FBI told us of certain changes to protocol 
that have already been made. We expect to hear of additional 
changes and accountability after the investigations are 
concluded.
    There were also numerous tips made to the Broward County 
Sheriff and other local authorities concerning Cruz's aberrant 
behavior and acts of violence. Instead of having Cruz arrested 
for his violent acts, officials transferred him to other 
schools or referred him to counseling. The reason for this 
lenient approach was that Broward County school policies were 
altered several years ago to reduce juvenile arrests.
    These policies, implemented by the Obama Department of 
Education, replaced previous zero-tolerance policies in Broward 
County. Before this change, Cruz likely would have been 
arrested, perhaps multiple times. This lack of an arrest record 
made it more difficult for local police to confirm that Cruz 
was a threat and to intervene when they received tips and 
complaints from neighbors, classmates, and relatives about his 
stated desire to kill people.
    When the tips were made to the FBI, no derogatory 
information about Cruz existed in the Federal National Crime 
Information Center--NCIC database--which includes all state 
arrests, convictions, warrants, and alerts.
    If Cruz had been arrested and booked for any of the on-
campus offenses he committed, the FBI intake specialist 
handling the call would have seen this criminal history in NCIC 
and the call would have been taken more seriously. Moreover, 
Cruz would not have been permitted to purchase a firearm under 
the National Instant Criminal Background Check System, NICS.
    Our Nation's safety depends on law enforcement at all 
levels seamlessly sharing information, but that information is 
only as good as what is documented and entered into systems. 
When information is inaccurate or missing, or derogatory 
information is not generated because of misguided public 
policy, the ability of law enforcement to protect us is 
severely impaired. Having said that, in this case there are 
also very concerning missed steps by law enforcement, as well.
    I look forward to examining all these problems in depth 
during today's hearing. Again, thank you, Mr. Chairman, for 
holding this important hearing. I look forward to the testimony 
today and yield back the balance of my time.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
chair recognizes the gentleman from New York, Mr. Nadler, the 
ranking member of the full committee.
    Mr. Nadler. Thank you. Mr. Chairman, before I turn to the 
issue before us this morning I must comment on a truly 
disturbing phenomenon.
    Whether or not the Attorney General's decision to fire 
Deputy Director Andrew McCabe was justified--and we cannot 
begin to know that until the inspector general's report is 
completed and published--none of us should take pleasure in 
this ending to the career of a man who has dedicated his life 
to the bureau, yet President Trump relished it. He took to 
Twitter to celebrate, and when he was done dragging Mr. McCabe 
through the mud yet again, he set his sights on his real 
target, Special Counsel Robert Mueller. ``A total witch hunt,'' 
he declared again yesterday morning.
    And in response to this latest attack, the majority here 
has said nothing. We have asked time and again for this 
committee to take action. In letter after letter, we have asked 
that the committee hold hearings on the President's overt 
attempts to undermine the Department of Justice. We have asked 
that the committee conduct basic oversight of the 
administration to help us secure the information we all need to 
do our jobs and to protect an ongoing criminal investigation 
from a President who clearly does not want the investigation to 
continue and to find the truth.
    And what has been the response? Silence. A complete 
abdication of our constitutional responsibility to hold the 
executive branch accountable to the American people for its 
misconduct, misguided policies, and general abuses of power. 
What will it take, Mr. Chairman? How far must the President 
push before the majority will stand with us, tell him he is 
wrong, and hold him accountable?
    It is appropriate for the Judiciary Committee Subcommittee 
on Crime to conduct hearings to examine ways to prevent the 
victimization of our citizens by violent acts. I hope that, as 
a result of today's hearing, we will find ways to make our 
country safer. But before addressing the issues that appear to 
be the focus of this hearing, I must note two things.
    First, this hearing is being conducted in the aftermath of 
the horrible shooting at Marjory Stoneman Douglas High School 
in Parkland, Florida, 5 weeks ago. In the time since that 
tragedy in which 17 students and staff were shot and killed, we 
should have conducted hearings about shortcomings in our gun 
laws, and we should have advanced legislation to strengthen 
them.
    We know that we must also plug the gaping holes in the 
background check system that is designed to help prevent 
illegal gun transfers and possession. We must also explore ways 
to help States establish extreme risk protection orders in 
emergency situations when someone presents a danger to 
themselves or others. And we must enact legislation to ban 
certain devices, such as assault weapons and high-capacity 
ammunition magazines which have no place in our streets.
    Unfortunately, there has reportedly been another school 
shooting just this morning at Great Mills High School, about 70 
miles from here in St. Mary's County, Maryland. There are 
reports that several people were shot, and we can only hope 
there will be no fatalities. But we simply cannot watch this 
happen time and time again and take no action.
    But this committee has not done what is needed. And I 
fear--I fear--that this hearing is designed as a way to dodge 
these critical issues relating to firearms and is a way to 
deflect attention from the failure of this Congress to fix what 
is broken with respect to our firearms laws. Certainly, we 
should examine the mechanisms we employ to encourage and allow 
citizens to report the fact that someone is planning to commit 
a violent crime.
    Recently, I attended a briefing conducted by the FBI's 
Deputy Director, who will testify today, at which he explained 
how the bureau and its contract employees did not follow up 
appropriately to the tips they had received about Nikolas Cruz, 
the Parkland shooter. In those instances, the system did not 
work. We need to know why and how to fix the flaws, while also 
ensuring that the evaluation of such tips involves due process 
for the subject of these reports.
    Also, the issue of school discipline is a worthy topic of 
discussion, so long and it is constructive and not intended to 
undermine progress in reforming disciplinary policies that have 
been racially biased and counterproductive for a long time.
    Unfortunately, some individuals are advancing the charge 
that reforms to these policies contributed to the Parkland 
shooter not having been stopped. To use a horrible mass 
shooting as a pretext to hold up the progress in these much-
needed reforms is offensive.
    Similarly, we must not accept claims that we need to arm 
teachers or to ratchet up law enforcement intervention in our 
schools. We can keep our children safe and at the same time 
stop the school-to-prison pipeline. In conclusion, I hope we 
can find a way to learn lessons from this hearing about law 
enforcement's processing of tips and the need to adopt sound 
evidence-based and unbiased disciplinary policies for our 
schools.
    But examining these issues is not substitute for hearings 
and legislative action to fix our gun laws. We know what we 
need to do to protect our children and all of our citizens from 
gun violence, and we should act without further delay.
    Mr. Chairman, noting that I have repeatedly called to the 
committee to conduct hearings on gun violence and to advance 
legislation to strengthen our gun laws, including doing so at 
our committee's markup on March 7th, I ask unanimous consent to 
place the following letters to the chairman of the full 
committee in the record.
    First, on February 21st, 2018, I led a letter by all House 
Judiciary Committee Democrats urging the chairman to bring gun 
violence prevention legislation before the Judiciary Committee 
for a vote.
    Second, on November 7th, 2017, committee Democrats sent a 
letter to the chairman requesting that the committee's ATF 
briefing on bump stocks be conducted as a public hearing and 
that the FBI be included to discuss background check issues.
    Third, on November 1st, 2017, all committee Democrats sent 
a letter to the chairman urging that we hold hearings on gun 
violence in America.
    And fourth, on October 2nd, 2017, immediately following the 
Las Vegas shooting, committee Democrats sent a letter to the 
chairman renewing previous requests for hearings on gun 
violence issues. As I said, I ask unanimous consent that these 
letters be placed in the record.
    Mr. Sensenbrenner. Without objection, so ordered.
    Mr. Nadler. Thank you. I yield back.
    Mr. Sensenbrenner. Okay. Without objection, other members 
opening statements will be made a part of the record.
    We will have a two-panel hearing today, which I am not 
really enthused about. But the FBI will not be on the same 
panel with people that are outside the government; so it is 
what it is. I would like to swear in all of our witnesses, 
including the second-panel witnesses, at the same time. So 
could you all please stand?
    Do you solemnly swear that the testimony you are about to 
give before this committee is the truth, the whole truth, and 
nothing but the truth, so help you God? Let the record reflect 
that all witnesses responded in the affirmative, and please be 
seated.
    Our first witness is Mr. David Bowdich, the Deputy Director 
of the FBI. And I guess I do not have lengthy biographies, so 
let me say I would like to ask the witnesses to summarize their 
statements in a 5-minute period. And without objection all of 
the witnesses opening statements will be printed in entirety in 
the record. Mr. Bowdich, go ahead.

STATEMENT OF DAVID BOWDICH, DEPUTY DIRECTOR, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Bowdich. Thank you, Mr. Chairman. Chairman 
Sensenbrenner, Ranking Member Jackson Lee, members of the 
subcommittee, it is my privilege to appear before you today as 
the Deputy Director of the FBI. As I told the Senate Judiciary 
Committee last week, I wish it were under different 
circumstances.
    On February the 14th of 2018 at Marjory Stoneman Douglas 
High School in Parkland, Florida, a former student murdered 17 
innocent people and caused significant physical and emotional 
harm to countless others. This tragedy abruptly ended the lives 
of kids who had their lives and dreams ahead of them and stole 
their futures.
    To the victims, families, and friends of those who were 
killed or injured that day: Director Wray, myself, and the rest 
of the FBI extend our deepest sympathies to you. Though nothing 
can be said to undo the hurt and loss that you all feel, please 
know that the FBI continues to work closely with our State and 
local law enforcement partners in Florida to ensure that 
justice will be served.
    Unfortunately, as was disclosed by the FBI shortly after 
this terrible incident, we did receive two separate tips that 
we now know were related to the shooter, Nikolas Cruz. As the 
FBI director has made clear, the FBI should have and could have 
done more to investigate the information it was provided prior 
to the shooting.
    While we will never know if we could have prevented this 
tragedy, we clearly should have done more. Our investigation 
continues into exactly what the FBI learned prior to February 
14th, 2018, and what we did and did not do in response. To 
summarize the results of our investigation to date, let me 
quickly walk the committee through the relevant timeline as we 
understand it.
    It is important to know the FBI receives tips from the 
public through our Public Access Line, or PAL. The PAL is the 
FBI's central call center for all calls and electronic tips 
made to the FBI's 56 field offices.
    The access line is responsible for receiving and vetting 
information from the public, then disseminating it to the field 
as actionable tips and leads for special agents and 
intelligence analysts to follow up on. To understand the volume 
of leads that we receive, during 2017 alone the PAL received 
approximately 765,000 calls and 735,000 email tips.
    On September the 25th, 2017, the FBI received an email tip 
from a person in Mississippi who indicated that a person 
unknown to him posted on his YouTube page the following text, 
``I am going to be a professional school shooter.'' The posting 
was from the username Nikolas Cruz. In response to this tip, 
the PAL opened what the FBI calls a Guardian lead and assigned 
it to our Jackson, Mississippi Field Office.
    Upon receipt of the Guardian lead, an FBI special agent, 
along with a local task force officer, interviewed the tipster 
on October the 2nd, 2017. At the time of this interview, the 
tipster provided a copy of a screenshot of the subject's post.
    The agent conducted searches of both FBI databases and open 
sources. Believing that the true identity of the poster could 
not be determined, the Guardian lead was closed on October the 
11th, 2017, with no other additional activity. A few months 
later, on January the 5th, 2018, the FBI received another tip 
by way of a call to the PAL from someone who identified herself 
as a close friend of the Cruz family.
    The caller provided the following very explicit information 
about Cruz: Statements about Cruz harming himself and others, 
references to ISIS, that he had threatened his mother with a 
rifle, that he had purchased several weapons, that he wanted to 
kill people and he was going to explode, that he was mutilating 
small animals, that the caller was concerned that Cruz might 
shoot up a school.
    The caller also noted that Cruz was 18 years old, yet he 
had the mental capacity of a 12- to 14-year-old. She indicated 
she was very concerned and had contacted the Parkland Police 
Department and wanted someone to look into this matter.
    Upon finishing the call, the FBI operator conducted a 
search of FBI databases and found the closed Guardian lead 
which was created previously in Mississippi. The operator then 
consulted with her supervisor and the matter was closed. The 
information was never forwarded to a field office nor to any of 
our State or local partners for further review or 
investigation.
    As the FBI learned of the Parkland shooting incident, our 
personnel searched our holdings and discovered these two tips. 
This is not the kind of news I want to deliver to Congress, to 
the families, or to the public. But we are committed to 
transparency in all that we do on behalf of the American 
people.
    While I cannot fathom the anger or the sense of loss of the 
victims' families and friends, I again want to express on 
behalf of the men and women of the FBI our deepest sympathy. 
When we make mistakes, we will not hide them, and we are 
committed, with your help, to doing whatever is necessary to 
correct our mistakes and prevent tragedies like this one from 
ever being repeated.
    Thank you and I look forward to your questions.
    Mr. Sensenbrenner. Thank you very much. The chair 
recognizes himself for 5 minutes. Both of the tips that the FBI 
received indicated that Mr. Cruz had the thought in mind of 
shooting up a school, including using the phrase, 
``professional school shooter.''
    Given the tragedies that occurred before the one in 
Parkland, Florida, would there be anything in what the FBI 
received that would rise to a level of above a tip that was 
received on something that would not be a mass school shooting 
or an act of terrorism?
    Mr. Bowdich. [Inaudible--microphone not on]
    Mr. Sensenbrenner. Are you saying that a school shooting is 
an eminent threat to public safety and should be top priority 
or the other things that I mentioned? Mike please. Turn your 
mike on.
    Mr. Bowdich. Sorry, Mr. Chairman. Whether it is a 
potentially eminent act of terrorism, or a potential act of 
violence at a school, a school shooting, those would be top 
priorities that we would need to address immediately.
    Mr. Sensenbrenner. Okay. You got two tips. The FBI agents 
went and interviewed the tipsters and decided after seeing the 
evidence, including verbal testimony or information from 
someone who knew the Cruz family very well, they decided to 
close the information and not pass this on to local law 
enforcement. Why was that?
    Mr. Bowdich. Sir, it is a good question and that is what we 
are trying to get to the bottom of. So, just to clarify, you 
had two tips. In the first one, you had an agent and a local 
task force officer that went and conducted an interview. They 
did do some investigative activity to include checking certain 
databases. However, they closed that lead on October the 11th 
after receiving it on September the 25th.
    In the second lead, it was a customer service 
representative at our call center in West Virginia. She 
received the call, she listened to it, something made her go to 
her supervisor, who was a supervisory special agent. Based on 
the content of her presentation to him and that dialogue, he 
told her to close it, no lead value.
    What we do not know is exactly how that was presented. So, 
we have tried to make numerous corrective actions to ensure 
that in the future that supervisor would have had to take 
certain steps to include reviewing that call and to include 
ensuring that certain databases had been checked.
    In this case, she not only listened to the call with all 
the concerning behaviors that she was told about, she also 
found the Guardian lead from Mississippi that had occurred a 
few months prior and then closed.
    We still, to this day--and I am not sure we will ever 
know--how was it presented to the supervisor because we have 
two different recollections between those two employees.
    Mr. Sensenbrenner. Well, the thing is, I can understand 
that with the Mississippi tip, which was the one that used 
``professional school shooter,'' you had no idea who Nikolas 
Cruz was. Whether it was a real name or an alias and where 
Nikolas Cruz lived.
    However, with the verbal tip of the neighbor who knew the 
Cruz family, you knew precisely where he lived and what a lot 
of his activities and predispositions were which I assume we 
could have picked up the fact that there were 39 domestic 
violence calls made to the local police.
    Why was there not a connection made between the tip from 
Mississippi that was closed because nobody knew where Nikolas 
Cruz was or whether that was his real name, and the fact that 
when you found out that Nikolas Cruz lived in Florida and it 
was a neighbor using that name and describing some of his 
behavior? Why was there not a connection made between the two?
    Mr. Bowdich. Senator, the call taker in West Virginia did 
find the Guardian with the name Nikolas Cruz on it. She did 
find that closed Guardian. The connection was there. She did 
not action it and send that lead to the field office. She did 
not create a lead, and then forward it to a field office for 
further investigation.
    Mr. Sensenbrenner. Okay, thank you. My time is expired. The 
gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the chairman very much for 
yielding. Let me, as I indicated, that I would be mentioning a 
number of other elements, but I do want to associate myself 
with the ranking member of the full committee--certainly since, 
Deputy Director, you are here before me--to indicate that I 
absolutely do not believe that there are any conspiracies being 
created by the FBI with the DOJ.
    Secondarily, I think it is important to put on the record 
that although we wait for the I.G. report as relates to Deputy 
Director McCabe, no one can discount the outrageous actions of 
the administration over the weekend, and they should be held 
accountable for it.
    Having said that, I pick up that I hope this committee--as 
I had indicated, and the ranking member indicate--will truly 
focus itself on the item of violence that is guns, that is 
automatic weapons, the bump stocks, AR-15s, which Mr. Cruz had. 
Let me ask this question. Are you familiar with the ED/DOJ 
school discipline guidance package that was offered in 2014? 
Dealing with the issues of how to address student discipline?
    Mr. Bowdich. Ma'am, I do not recall that guidance, no.
    Ms. Jackson Lee. All right. But do you have any indication 
that that guidance had anything to do with the reaction of the 
FBI on those tips?
    Mr. Bowdich. We do not. No, ma'am.
    Ms. Jackson Lee. You have no indication of such?
    Mr. Bowdich. We have no indication.
    Ms. Jackson Lee. That anything of that nature was blocking 
or stopping any agent from acting?
    Mr. Bowdich. No, ma'am. We do not.
    Ms. Jackson Lee. Thank you. First of all, I thank for your 
honesty. And I do want to take note of that fact to correct the 
record that the Broward County school discipline--that it might 
have been rewritten pursuant to this 2014 ED/DOJ school 
discipline package was not accurate. Broward County instituted 
their own reforms dealing with school discipline in 2013.
    But what I do want to bring to your attention is the family 
member. You said in your statement that the person identified 
themselves as a close friend of the family and, therefore, that 
could have been documented.
    And then, the statements about Cruz harming himself and 
others, references to ISIS, that he had threatened his mother 
with a rifle that he purchased several weapons, that he wanted 
to kill people, and was going to explode, that he was 
mutilating small animals, and the caller was concerned that 
Cruz might shoot up the school.
    Tell me, why in the world, whether or not there was 
criteria or not, that the supervisor independently would have 
not had their hair on fire? This is not a discipline problem. 
This is a monster who, unfortunately, happens to be a young 
person, tragically saddened that their life has come to this. 
And then, the actual agent would not do anything. Can you 
explain that to me?
    Mr. Bowdich. Ranking Member Jackson Lee, again, I do not 
know how it was presented to him. But there were discussions. 
Apparently, the local department had been called. And I do not 
know if that triggered him to believe this was a local matter. 
That was my understanding, is at least some of that local 
discussion triggered in his mind, ``This is a local matter. It 
is being dealt with----
    Ms. Jackson Lee. Let me, because my time is short. Going 
forward, would you have wanted his hair to be on fire and to 
take charge? Or her hair? And to at least contact local 
authorities?
    Mr. Bowdich. Absolutely. And I want to be clear here. We 
made a mistake. I am not talking for any other agency, and I am 
not trying to spread the blame. We made mistakes as an 
organization. Absolutely. Based on the contents of this call 
and all the concerning behaviors that came out of it, we would 
want them to act immediately; whether it was us or whether it 
was an immediate call to that police department. And then, we 
can join in later.
    Ms. Jackson Lee. Do you have best practices that you can 
present to us? Will you please submit that to this committee in 
writing? What are the new changes, as relates to these specific 
actions, which you should not be classifying?
    Mr. Bowdich. Yes, ma'am. Our inspection team went out 
there. They are still finalizing their report, but they made 16 
independent recommendations. We have already bridged nine of 
those and we continue to work through a number of----
    Ms. Jackson Lee. And will you provide the committee with 
such?
    Mr. Bowdich. We will, after our reports are finalized. I 
have conferred with our general counsel, and we are willing to 
share that.
    Ms. Jackson Lee. And let me just put on the record that 
the--as I indicated in my opening statement--it was recommended 
by the disgraced officer and others that this young man should 
be forcibly committed, and it was not done. So, we can spread a 
wide range of activities, but I hope that the one activity that 
we will count is that he did not kill 17 people with his fists. 
He killed them with an AR-15, and we have to bring an end to 
the utilization of those guns by young people. Frankly, they 
need to be banned, and that certainly would be a contributing 
factor to saving lives. Mr. Chairman, I yield back.
    Mr. Sensenbrenner. The Chair would add that the staff tried 
to get officials from the Broward County Public Schools and law 
enforcement to testify at this hearing----
    Ms. Jackson Lee. Yes, sir.
    Mr. Sensenbrenner [continuing]. And they refused to do so. 
I think in order to close the loop on what went wrong and stop 
something like this from happening again; the committee should 
consider subpoenaing these officials, so we can get that on the 
record.
    Mr. Nadler. Mr. Chairman.
    Mr. Sensenbrenner. Yes. The gentleman from New York.
    Mr. Nadler. With respect to what you just said, is it not 
impossible or difficult for them to testify during an active 
investigation? And we might think that, without a subpoena, 
they would testify after the active investigation is over?
    Mr. Sensenbrenner. Well, they did not want to testify at 
all.
    Mr. Nadler. I think that might change, because there is an 
active investigation.
    Mr. Sensenbrenner. Well, after there is either a plea or a 
trial from Mr. Cruz, they ought to come up here to Washington. 
The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. Deputy Director, if 
Nikolas Cruz had been arrested at some point for the various 
acts of violence that were reported, both at home and at 
school, would those arrests have shown up in his NCIC 
background check?
    Mr. Bowdich. Yes, sir, they would have.
    Mr. Gohmert. And so, that would also come into play if 
someone checked the NCIC records. We are trying to determine 
his mental status. It still shows up for them to consider, 
correct?
    Mr. Bowdich. It would have shown a criminal history status 
of some sort. Yes, sir.
    Mr. Gohmert. But without ever having an arrest for the many 
acts of violence that we are told occurred, when someone runs a 
criminal background check, there is nothing that shows up, 
correct?
    Mr. Bowdich. No criminal history, sir.
    Mr. Gohmert. Right.
    Mr. Bowdich. That is correct.
    Mr. Gohmert. So, it does not matter how many people he 
threatened, how many chairs he threw, how many people he struck 
or assaulted. None of that ends up in the criminal background 
check unless there is an arrest, correct?
    Mr. Bowdich. That is correct, Congressman.
    Mr. Gohmert. In your written testimony and reporting, you 
indicated that the January 5 caller said that Nikolas Cruz made 
reference to ISIS on his Instagram post. Does the FBI have any 
information about any connection there between Cruz and ISIS?
    Mr. Bowdich. No, sir, we do not.
    Mr. Gohmert. Has there been any investigation to see 
whether there may be any connection?
    Mr. Bowdich. There absolutely has, sir. We did a very 
extensive social media scrub on Nikolas Cruz. And just to give 
you a scope of the scale of these types of investigations, Mr. 
Cruz had over a million images alone, and we have reviewed 
hundreds of thousands of pages, thousands of videos. This is 
one person. There is so much on social media for us to review 
today. But to answer your question directly, we did not find 
any sort of a connection to ISIS or any other----
    Mr. Gohmert. Were any of the million images that were 
noted, did those come from ISIS sources? Obviously, you got the 
name ``ISIS'' from somewhere.
    Mr. Bowdich. Not to my knowledge. Not to my knowledge, sir. 
But I have not seen it all.
    Mr. Gohmert. Yeah. So, you do not know if those were 
viewed?
    Mr. Bowdich. I have been told clearly by our 
Counterterrorism Division, ``We do not see any sort of a 
connection between ISIS or any other form of terrorist''----
    Mr. Gohmert. Connection means a communication, correct?
    Mr. Bowdich. Yes, sir.
    Mr. Gohmert. But it does not mean he was not inspired by 
information from ISIS, correct?
    Mr. Bowdich. That is correct, sir.
    Mr. Gohmert. Did the agent supervisor at the FBI's Public 
Access Line at CJIS listen to the call made by the woman on 
January 5th?
    Mr. Bowdich. No, sir, he did not.
    Mr. Gohmert. Should that have been brought to the agent 
supervisor's attention?
    Mr. Bowdich. It was brought to his attention----
    Mr. Gohmert. They just did not listen to it?
    Mr. Bowdich [continuing]. We would have preferred him to 
review it. And today, if that same call in, he would be 
required to review it.
    Mr. Gohmert. Thank you. And I hear my friends on the left 
of this dais and the left of the political spectrum, for the 
last 13 years I have been in Congress, repeatedly demanding 
that we should not claim an absolute right or wrong. We should 
look at things as being more relative. Not really a morality 
but more like amorality--one word. Let's let people make up 
their own minds as to what is right and wrong.
    And that appears to be behind this idea that if we just do 
not arrest people, if we do not enforce the clear rule of law 
that is in black and white--this is right, and this is wrong--
if we do not enforce that, we do not arrest people, then all is 
better. When actually, that led to his ability to buy a gun. 
And the problem is not the gun; it is the one that holds it.
    As someone who spent 4 years in our military training with 
such weapons, it was not the weapon. It was the holder. Like 
the law, it can be used to build up or it can be used to 
destroy. It can be used to protect or destroy.
    John Adams said this Constitution is ``for a moral and 
religious people. It is wholly inadequate'' for governing any 
other. And I would submit we have got to get rid of the Second 
Amendment, First Amendment, get rid of free speech because that 
offends people and causes violence if we are not going to get 
back to having a right and wrong. I yield back.
    Mr. Sensenbrenner. The gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you. Deputy Director, let me just ask you 
a question to clear up a remark you made a moment ago. Is it 
true that it is not just the lack of communication but that you 
have seen no evidence whatsoever of any connection in any way 
between this event and ISIS or any other terrorist group?
    Mr. Bowdich. That is correct, sir.
    Mr. Nadler. So there is no reason to suspect any such 
motivation at all?
    Mr. Bowdich. Correct, sir.
    Mr. Nadler. Thank you. Now, let me ask you, what mechanisms 
are in place to audit the processing of tips that the FBI 
receives?
    Mr. Bowdich. So, first of all, we have increased our 
oversight resources, our supervisory resources. We did not use 
to have a supervisor there at night during certain hours when 
the calls were diminished the numbers. We have increased that. 
We have doubled the size of our supervisory and oversight staff 
there. We have also brought in some operational focus into what 
is called a word cloud.
    So remember when I briefed this committee, the overall 
committee, I talked about the center. So, we have about 160 
people working in the call center. The vast majority of those 
folks are taking calls; however, right next to it we have folks 
taking what we call e-tips. These are just online tips.
    As part of that, as they take these e-tips, there is a word 
cloud at the bottom left side of the screen where it will say 
things like bomb, gun, school shooter, ISIS; those types of 
things. And it will allow them to quickly determine is there 
something here? Or at least focus on it. And there is a number 
of judgments that are made.
    The same thing has been done with the call center to where 
they are looking for certain behaviors, keys, words. We have 
also brought in our operational folks in the both the 
counterterrorism side as well as the criminal investigative 
side to provide emerging threat words and add to their acumen.
    Mr. Nadler. Thank you. And with respect to the handling of 
tips concerning the mass shooting in Florida last month, could 
and should the FBI have arrested him?
    Mr. Bowdich. Could we have? I do not know. So even if we 
had done everything right here--and I have said this repeatedly 
and again----
    Mr. Nadler. So even if you had done everything right, you 
do not know?
    Mr. Bowdich. Even if we had done everything right, I am not 
sure if we could have arrested him.
    Mr. Nadler. Okay. And when will the FBI finalize and make 
public the results of its review?
    Mr. Bowdich. I do not have the answers, sir, but they are 
moving rapidly on the report.
    Mr. Nadler. Can you give us an estimate? I mean, are we 
talking about a month, a year, a week?
    Mr. Bowdich. I would say within weeks.
    Mr. Nadler. Very good. Thank you. I now yield the balance 
of my time to the gentleman from Florida who represents Marjory 
Stoneman Douglas High School who is a member of the full 
committee, Mr. Deutch.
    Mr. Sensenbrenner. The gentleman from Florida is recognized 
for 2 minutes and 10 seconds.
    Mr. Deutch. Thank you. Thank you, Mr. Nadler. Thank you, 
Mr. Chairman. First, I would like to submit for the record a 
statement from the superintendent of Broward County Schools, 
Robert Runcie.
    Mr. Sensenbrenner. Without objection.
    Mr. Deutch. Deputy Director Bowdich, I appreciate your 
being here. On March 8th, after the briefing you gave members 
of Congress I asked Director Wray to offer additional briefing 
to the families of the victims. Do you know whether the FBI's 
reached out to any of those families to offer those briefings?
    Mr. Bowdich. We have not, sir. However, we did--before we 
came out to the public--we realized the day after this event 
that we had----
    Mr. Deutch. Deputy Director Bowdich, I understand the 
discussions you have had. I only have a minute. But have you 
reached out to them since I asked the director to reach out to 
those families, so they could understand what I understand as a 
Representative and what they deserve to know?
    Mr. Bowdich. We have not, sir. We have not been----
    Mr. Deutch. I understand. There are a couple of things that 
really strike me. When the first Guardian was closed, it was 
closed because it was unclear. You could not identify the 
person. Did you ask the social media company that the 
screenshot came from if they could help?
    Mr. Bowdich. We did not, sir. As I explained during the 
previous briefing, there are two potential steps----
    Mr. Deutch. I am so sorry that you did not.
    Mr. Bowdich. We did not.
    Mr. Deutch. And I appreciate the opportunity that we had to 
speak at length about this before. Also, we were told in the 
transcript, and you mentioned this morning, that the person who 
took the call reached out to the Parkland Police that I assume 
would be the Broward Sheriff's Office. Did anyone call to 
confirm whether that conversation took place?
    Mr. Bowdich. No.
    Mr. Deutch. I do not understand how those two things did 
not happen. There are so many questions. I just would--to 
close--I would urge you in the strongest possible terms to just 
be in contact with these families because they deserve it.
    And to my friend who said that it is not the gun, there 
were 150 rounds that were fired in under 5 minutes. That is 
possible from that gun. It is a weapon of war, and my friend 
acknowledges such because that is where he learned how to use 
it. The point here is our gun laws are broken. We need to have 
that conversation in this committee. We cannot be afraid to 
have that conversation, Mr. Chairman. I hope that we will have 
that opportunity, and I appreciate the time.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing. There were, clearly, 
multiple failures at both the local level and by the FBI--of 
the system--to prevent this horror from happening. This 
mentally disturbed shooter, he was a walking warning sign, I 
think we will all agree. And he could have--should have--been 
stopped before he ever entered that school.
    And my colleagues before me have already asked a number of 
questions. They have already been asked and answered, so I am 
not going to go over all that ground again. But one thing I do 
not think we did mention too much yet was that on that day of 
the shooting itself, there was an armed school resource officer 
who failed to enter the school and try to defend those 
students.
    And it is my understanding that there were a number of 
deputies that came. And they had been warned, I believe by him, 
to stay away, and they got their guns drawn and stayed behind 
their cars. And then, it was another police department that 
came and ultimately, they went in the building. And we will 
never know for sure how many lives could have been saved had 
personnel acted more decisively.
    And in addition to that, a lot of our schools--and this one 
included--have a sign out front in effect that says it is a 
gun-free school zone. Let me ask you that, Deputy Director. Do 
you have an opinion about that? Having signs out there 
basically telling law enforcement and telling law-abiding 
citizens not to have a gun there and that, in essence, the only 
person that is going to have a gun there is somebody who 
decides to break that law, is the deranged shooter, or 
criminal, or whatever? Could you tell us your thoughts on that?
    Mr. Bowdich. Congressman, I want to be careful because, as 
I mentioned to the Senate last week, I do not want my personal 
opinions to enter into this. And I think I am here representing 
the FBI as the Deputy Director and what I think about those 
types of things I do not think is appropriate for me to bring 
into this setting.
    Mr. Chabot. Okay. Well, I will tell you what I think. I 
think it is nuts to have a sign out there letting one of these 
people who has malice in their heart to know that they are the 
only person that is going to have weapon there.
    Now, that may change because some school systems have--I 
know President Trump talked about arming teachers. And that got 
misportrayed, I would argue, by a lot of the mainstream press 
as him saying that all teachers need to be armed, and that is 
not what he was saying. And I certainly would not support that.
    But I think it does warrant discussion as to whether some 
teachers who feel confidence and have been trained, who would 
feel comfortable and would want to protect themselves, other 
school personnel, and especially students, to at least consider 
that. But I also think that it would be critical to have 
additional law enforcement in those schools. School resource 
officers, not like the one who failed to protect those students 
in Florida, but ones who really are trained.
    Now, in my community--I happen to represent the First 
District of Ohio--and the city of Cincinnati, most of it is in 
my district. And the president of the FOP there--his name is 
Dan Hils--he had suggested retired police officers.
    A lot of these folks retire at 50, 51, 52, have another 15, 
20 years to work, and they are some of the most highly trained 
personnel of all. And I think having those folks in there to 
protect our children makes a lot of sense. As does a lot of the 
other things in the Stop School Violence Act that the House, to 
its credit in a bipartisan manner, passed recently allowing 
significantly more funding for things like metal detectors. 
Things like training our folks in the schools as to how to 
handle an active shooter situation. Things like identifying 
those students who are a danger to themselves or others and 
actually doing something about it.
    In this case, the failures that took place are almost too 
many to comprehend. This never should have happened, and it 
could have been stopped, and I think all of us--hopefully on 
both sides of the aisle--are determined to do everything we can 
to make sure that one of these things never happens again. And 
I am almost out of time, so thank you very much for being here. 
I look forward to seeing a local law enforcement officer. I 
yield back. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. And thank you, Mr. Bowdich, 
for being here today. There is a profile, Mr. Bowdich, in the 
Washington Post. I would like to submit an article for the 
record dated January 29th on a profile of Mr. Bowdich. I would 
like the American people to know that in 2005 he was a sniper, 
worked on the SWAT team, and as a result of a year-long 
investigation, that was the first time they were able to bring 
criminal racketeering charges against a street gang.
    Mr. Sensenbrenner. Without objection.
    Mr. Lieu. 2009, Mr. Bowdich also worked, and he worked on 
cartels. What he did was he identified the emerging kidnapping 
trend of Mexican cartel-related groups and in response, created 
the country's first FBI squad to pinpoint kidnapping threats on 
both sides of the U.S./Mexico border. So, thank you for your 
service. You serve our Nation well.
    I would like to ask you a few questions on your years of 
service and also about these school-related shootings. If an 
FBI agent is close to a school and gets a notice that there is 
a school shooting going on, is the agent trained to go and try 
to engage that shooter?
    Mr. Bowdich. Yes, sir, if necessary. Absolutely, we would 
expect them to respond in some form or fashion there.
    Mr. Lieu. Now, the President of the United States has 
attacked the Department of Justice and the FBI on partisan 
grounds. So, in all your years of experience, whether as a 
sniper, or on a SWAT team, or dealing with the San Bernardino 
terrorism issue, or school shootings, do you have any doubt 
that if an FBI agent happened to be a Democrat that that person 
would do exactly the same job if that FBI agent happened to be 
a Republican?
    Mr. Bowdich. No, sir.
    Mr. Lieu. In terms of the cases you did, when you would 
interact with prosecutors, did you bar justice? Did it matter 
to you whether that prosecutor was a Democrat or a Republican?
    Mr. Bowdich. It did not. We do not see the world through 
shades.
    Mr. Lieu. The FBI Director Christopher Wray happens to be a 
Republican who also happened to give over $37,000 exclusively 
to Republican candidates. I still trust Christopher Wray to do 
the job. Do you trust him to do the job, even though he is a 
Republican?
    Mr. Bowdich. One-hundred percent, sir.
    Mr. Lieu. I personally find it demeaning when the President 
attacks FBI because he believes that agents somehow cannot do 
their job because of whatever political ideology they have when 
they are off-duty. My view is that they have professionals at 
FBI; they train to risk their lives for our Nation, and the 
President of the United States needs to stop attacking the FBI.
    Now, I want to go to what a person should do in an active 
shooter situation. I have served on active duty in the 
military; been on bases where we do all these drills. And I was 
taught three things. The first is you run if you do not have a 
weapon. If you cannot run and you do not have a weapon, you 
hide. And third, only if you cannot run, and you cannot hide, 
and you do not have a weapon do you try to engage the shooter. 
Would that be accurate?
    Mr. Bowdich. That would be standard guidance we would put 
out to the public, yes sir.
    Mr. Lieu. Okay. So, I just need to clarify when the 
President of the United States publicly said that, ``He would 
have confronted the shooter at Parkland even though he did not 
have a weapon.'' I just need the American public to know that 
that is really stupid. People should not do that. If you do not 
have a weapon in an active shooter situation, you do not engage 
that shooter. You run first. If you cannot run, you hide. Only 
if you cannot do those two do you engage the shooter. And I am 
glad that you confirmed that.
    And then, let me conclude now on some issues related to gun 
violence. I am glad we are having this hearing. But I do want 
the American public to know that we are not allowed to vote, 
not even have a vote, on legislation that could establish 
universal background checks, on legislation that could ban bump 
stocks--whose only purpose is to make a weapon fully automatic. 
There is no need in a civil society for that product.
    We cannot even have a vote on a ban on assault weapons. 
When that was in place, statistics show that gun massacres 
dropped 37 percent. We cannot even have a debate on these 
issues. So, it is my hope that the Republican-controlled 
Congress will at least allow us to have a vote and have a 
debate on these common sense gun measure issues.
    And I also note based on what my colleague from Florida 
said Parkland, and Newtown, and Las Vegas a lot of these 
shootings were done by weapons of war. I have two marksmanship 
ribbons, from the U.S. Military. But before they would let me 
fire a gun, I had to be trained on it. Take it apart put it 
back together. The notion that we would give people guns and 
have them out in schools without any training to me seems 
completely utterly dangerous and ridiculous. With that, I yield 
back.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentleman from Florida, Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman. And thank you, 
Deputy Director, for being here today. I want to go to the PAL 
and think about the decision-making process that was going on 
with the January 5 decision--when that was actually being made.
    And I want to ask you first if you have a school board and 
a local law enforcement agency that have agreed to create a 
program that keeps violent felonies out of your database 
system, so there is no arrest for a violent felony. And we know 
that when your agents and call receivers are evaluating the 
threat assessment--when they are conducting that threat 
assessment of a tip--that information would be valuable, is 
that correct?
    Mr. Bowdich. Congressman, anytime we are reviewing a tip or 
a lead about someone with concerning behaviors, yes, the more 
information we can get about that person it certainly helps us 
establish what would be appropriate actions to investigate this 
person.
    Mr. Rutherford. So, on the Mississippi tip they issued a 
Guardian follow-up just based on a screenshot of someone who 
said they wanted to be a professional school shooter. Yet the 
tip that came in in January has information about Cruz wanting 
to harm himself. And I know who the lady is that is providing 
the tip.
    She references ISIS, that he had threatened his mother with 
a rifle, that he had purchased several weapons, that he wanted 
to kill people, and was going to explode, that he was 
mutilating small animals, and us in law enforcement we know 
exactly what that leads to. And that the caller was concerned 
that Cruz might shoot up a school. Yet, no Guardian 
investigation was opened on those items. And I put myself in 
that decision, because look I do not believe that the 
individual that made that decision had evil intent.
    So, I am trying to figure out, why would I make that 
decision? Why possibly could I make that decision? And I think 
in your opening statement, I think it might be in the very next 
paragraph where the caller noted that Cruz was 18 years old but 
had the mental capacity of a 12- or 14-year-old. And she 
indicated that she was very concerned and had contacted the 
Parkland Police Department.
    The agency of jurisdiction for this Nikolas Cruz, and she 
wanted someone to look into this matter. Do you think that 
could have played into the decision of this individual that the 
supervisor who is making the decision that, you know, maybe 
this is already being looked into by the Parkland Police 
Department?
    Mr. Bowdich. Congressman, I do. I think that certainly 
contributed to the supervisory special agent's thought process 
about this. That is my understanding.
    Mr. Rutherford. Right.
    Mr. Bowdich. However, the call taker; I think there were 
some other things. One of which was there was no specificity on 
where this school was going to be, date, time, that type of 
thing. Right, wrong, or indifferent my understanding is she 
focused on that. When, in fact, I would have preferred she 
focus on the behaviors that were laid out because there is a 
kind of a----
    Mr. Rutherford. Well, yeah do not get me wrong; I am in no 
way agreeing with the decision. I am just trying in my own mind 
to figure out how the supervisor could have made that decision. 
But, look, what I see here is more a personnel issue as opposed 
to a policy problem. But I cannot imagine that the policy is if 
you have all these things that you do not open a Guardian 
investigation. Would you agree with that?
    Mr. Bowdich. Yes, Congressman. But we are refining some of 
our policies and our procedures because, quite frankly, when I 
listened to this call the day after the Parkland shooting, the 
evening after, my heart sunk.
    Mr. Rutherford. How could you not? Yeah.
    Mr. Bowdich. How could you not, exactly. And what we are 
trying to ensure is that we remove the ability for one person, 
as the call taker, to make that decision. That call should be 
elevated to that supervisory special agent, and then require 
further actual investigation by the----
    Mr. Rutherford. So, let me close with this because my time 
is almost up. But I want to make it very clear that I think the 
issue here is a personnel problem. A personnel mistake because 
I do not think this supervisor had ill intent, or the call 
taker; they made a bad decision. A very bad decision I think 
not to follow up really with Parkland Police Department to make 
sure----
    Mr. Sensenbrenner. The gentleman's time has expired.
    Mr. Rutherford. My time is up, and I yield back.
    Mr. Bowdich. Mr. Chairman, can I add something? Mr. 
Chairman? The witness?
    Mr. Sensenbrenner. The gentleman from Maryland, Mr. Raskin, 
is next up. So you are recognized for 5 minutes.
    Mr. Raskin. Excuse me, Mr. Chairman, am I up or is it Mr. 
Richmond?
    Mr. Sensenbrenner. You are up.
    Mr. Raskin. Okay. Thank you very much. Thank you for your 
testimony, Mr. Bowdich. You know, obviously, there has been a 
difference of policy opinion about what to do in the wake of 
the Parkland massacre where 17 of our people were assassinated 
by a 19 year old carrying a weapon of war, an AR-15, into a 
public school.
    And the most recent poll I saw by the Rasmussen Group 
showed that 97 percent of the American people want to enact a 
universal criminal and mental background check. And 66 percent 
of the people want to ban military style assault weapons.
    I think 100 percent of the people would like law 
enforcement to be infallible, and to follow up on every tip, 
and to chase down any potential threats that are out there. But 
I want to follow up on the point that you made where you said 
you were not sure whether you might have been able to arrest 
Cruz, even had you followed up on the clues and tips that 
existed. Would you just explain that?
    Mr. Bowdich. Well, yes sir. It is a good question. So, when 
you look at these you kind of do a reverse engineering of what 
occurred here. And when we look at what we should have done and 
could have done, ultimately what could have and certainly would 
have been nice to have happen is we would have ended up in 
front of Mr. Cruz, actually face to face interviewing him.
    Could that have stopped this act? I do not know. Could we 
have disrupted the act? Could we have delayed it? I do not 
know.
    Mr. Raskin. But could you have arrested him for purchasing 
an AR-15 as an 18 year old or a 19 year old?
    Mr. Bowdich. No sir, we could not. We had an 18-year-old 
young man with no felonies on his record who purchased seven 
weapons. One of those was used in the shooting, and we could 
not have stopped him based on the information we had.
    Mr. Raskin. Could you have arrested him if you had known 
that he had been bullied, or he had a history of bullying 
others?
    Mr. Bowdich. No.
    Mr. Raskin. Could you have arrested him if you had known he 
had killed small animals----
    Mr. Bowdich. No.
    Mr. Raskin [continuing]. If someone reported that? Could 
you have arrested him had you known, like with Dylann Roof, 
that he had been involved with racist groups, or had expressed 
white supremacist attitudes?
    Mr. Bowdich. No, not based alone on that. But we certainly 
would have been looking very, very hard at him.
    Mr. Raskin. All right, you said you get 765,000 calls, 
735,000 emails to the tip line each year. How many of those 
lead to the kind of investigation you are talking about where 
you come face to face with someone, even if you do not have the 
grounds to arrest them?
    Mr. Bowdich. Where it actually ends up being an interview? 
I would say prior to this fateful day, February 14th, about 2 
percent of those ended up in Guardian leads where essentially 
the call or the e-tip would lead to a lead that would be sent 
out to the field office. Now, what percentage ended up with an 
interview I do not know.
    Since then, the numbers of Guardians have gone up 
incrementally, actually tremendously, which has a downstream 
impact on our field offices. But that is because I think there 
is a bit of an over correction, which is better than an under 
correction. We just have to refine those policies and make sure 
we get it to where it is a more manageable number.
    Mr. Raskin. There has been a suggestion by some of my 
colleagues, including my friend, Mr. Rutherford, that this was 
a personnel problem. And that had there been different 
personnel on the job something else might have happened. And we 
all can only pray in retrospect and wish that somebody had 
somehow had pulled out of the morass of complaints that had 
come in--this one--and really pushed it up the line.
    But in your experience as a law enforcement official, do 
you think it would be possible for us to come up with a 
foolproof system of identifying anybody who might be interested 
in committing a mass shooting; stopping them and somehow 
isolating them and preventing them from doing it?
    Mr. Bowdich. No, sir. I do not think there is going to be 
any foolproof system. If I could return back to the personnel 
issue. Congressman, this is what I was going to try to respond 
to. We do have a lot of personnel out there. Those jobs are 
difficult. I sat through a number of those calls when I went 
out there right after this incident.
    It is not easy work because you are trying to determine 
mental illness from not. You are trying to determine is there a 
federal crime? And repeatedly those calls come in to the PAL 
tip line, and they do lead to disruptions. So, those folks are 
working hard. We have a job to do, which is to refine the 
policies and procedures. But also to increase their training 
and make sure that we are giving them the proper training. And 
we have already begun that.
    Mr. Raskin. Okay. You know, but I am a representative from 
Maryland, we experienced the most recent gun shooting this 
morning in St. Mary's County. Would you please reassure the 
Marylanders in St. Mary's County, and Americans generally, that 
you are doing everything that you can to try to tighten up the 
system as the young people lead us towards sane and balanced 
gun safety laws with their march on Washington this Saturday? 
But can tell us that the FBI is doing everything in its power 
to try to crack down.
    Mr. Bowdich. Yes, sir. To Congressman, to both your 
constituents and the remainder of constituents around the 
country, we are doing everything in our power to work hand in 
hand with our State and local police to ensure we do everything 
to keep our school safe.
    Mr. Raskin. Thank you. I yield back, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Texas, Mr. Poe.
    Mr. Poe. I thank the chairman. Thank you for being here. 
Thank you for the work that you do with the FBI. As a former 
judge for 22 years and a prosecutor, I had a lot of interaction 
with the FBI, and a lot of other law enforcement agencies as 
well. The system is getting a lot of criticism about breaking 
down. And I am not talking about the FBI; I am talking about 
the whole system of the school and this individual being 
allowed getting back on campus and then killing people. 
Investigated by sheriff's department, the Florida Department of 
Children, lots of tips, calls, students were aware of him, 
school was aware of him, et cetera, et cetera. We know that 
Cruz was a dangerous person when he came back on campus.
    The issue about schools and shootings--and I am a parent, 
four kids, 12 grandkids, they all go to school. Well, the four 
kids do not go to school anymore. They are off the payroll 
finally. And it is of great concern to me, because it is a 
school. You know, the little red schoolhouse days of the 
American flag flying out in front, one-room schoolhouse. You 
know those days are over in this country.
    And let me ask you about security on campus. Who is 
responsible for security on campuses, generally speaking? Is it 
the sheriff's department? The police department? The school 
district? Who is responsible for school security? Generally 
speaking, just generally speaking.
    Mr. Bowdich. Congressman, I do not want to be wrong. I 
would think it would be the school board, but it could vary 
from jurisdiction to jurisdiction. But I just do not know. I 
have not researched that.
    Mr. Poe. I think you are right. It is up to the school 
district, the school board, to make a policy of protecting the 
students on campus. Do you think that this idea of a gun-free 
zone sign out in front of a school district has anything to do 
with school safety, and protects the school in any way? I am 
asking your opinion, just your opinion.
    Mr. Bowdich. Congressman, I do not want to opine on that. I 
think that was probably the intent, but I do not want to opine 
on how effective it is. I just do not know.
    Mr. Poe. The individuals in your experience, covering a 
multitude of criminal conduct, that use firearms to commit 
crimes. They go to places that are generally where they hope 
that they could succeed in committing the crime with their 
firearm.
    And usually in many cases--like, let's say, all the 
government buildings in Washington, D.C.; the Capitol across 
the street, this building that we are in--are protected by 
people who wear firearms, or have access to firearms to protect 
the people in that building. Whether they work there or whether 
they are coming to visit there. Is that not the general rule 
for, let's say, in the Federal Government. Government buildings 
are protected by people who use or carry firearms.
    Mr. Bowdich. Yes, sir. The vast majority of Federal 
buildings are protected by some form of armed security or armed 
police.
    Mr. Poe. Why do not we protect our schools like we protect 
government buildings? I mean, friends on the other side they 
talk about firearms but, you know, we go across the street to 
U.S. Capitol, the place is covered with Capitol Police Officers 
to protect us. But yet we want to deny that type of protection 
to our kids in public schools.
    I am missing the connection of why we should go to a system 
where there is no protection for students who go to schools. I 
am not talking about arming teachers. I am talking about just 
basic security, whether it is off-duty police officers that are 
still licensed to protect and serve the community, or whether 
it is a school police officers.
    We take a public setting of our schools, and we have a 
philosophy that we will not protect those people by having law 
enforcement officers there. But yet when we have a government 
building we are protected. Many members of Congress are 
protected; they have their own detail. But yet why will we not 
protect our students in public schools with an armed guard 
available to protect them? Do you know the answer to that?
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Deputy Director. Many schools do 
have school resource officers, correct?
    Mr. Bowdich. Yes, sir.
    Mr. Richmond. And many of them carry weapons, correct?
    Mr. Bowdich. Yes, sir.
    Mr. Richmond. And, in this case, they had a school resource 
officer, right?
    Mr. Bowdich. That is my understanding, yes sir.
    Mr. Richmond. And was he carrying a weapon?
    Mr. Bowdich. I believe he was.
    Mr. Richmond. Many banks have police details where they 
carry weapons, correct?
    Mr. Bowdich. Yes.
    Mr. Richmond. And many banks still get robbed, correct?
    Mr. Bowdich. Yes. Many of them to be clear, Congressman, 
many do not have armed guards inside.
    Mr. Richmond. The banks?
    Mr. Bowdich. Many of the banks that are robbed do not have 
armed guards inside. That is correct, sir.
    Mr. Richmond. Let me ask you a couple questions, because we 
are all over the place, and I think that the title of the 
hearing is an Examination of Law Enforcement Information 
Sharing and Misguided Public Policy. We could talk about bump 
stocks; we could talk about high-capacity cartridges that allow 
people to create mass carnage. But I just want to spend a 
second about the information sharing first.
    We did not have a hearing like this about information 
sharing after the Charleston Nine, because there is a 
Charleston loophole that would allow someone like Dylann Roof 
to buy a .45 even though he would not pass a background check, 
because if it does not come back in 3 days, he can get the gun 
anyway. Is that not correct? If the FBI background check does 
not come back in 3 days, or objection from the FBI, then the 
person is allowed to purchase the weapon, right?
    Mr. Bowdich. Yes sir, that is correct. That is part of the 
proceed or deny process. What we have found repeatedly is most 
of our big box stores, your mass firearm, or your large stores 
that sell firearms, they will often times hold until they 
received a response. But many of your smaller stores will go 
ahead and proceed after 3 days, because legally they can.
    Mr. Richmond. And that loophole allows someone, no matter 
what their background, no matter what they have done in the 
past, no matter how evil they are, if the proceed or deny is 
not done within 3 days they are legally allowed to purchase a 
weapon.
    Mr. Bowdich. Congressman, if we do not have the necessary 
information to give either a proceed or a deny order to the 
seller, then they can go ahead and proceed with the sale. Yes, 
sir.
    Mr. Richmond. And after that loophole was exploited and 
nine people were killed while in Mother Emanuel Church at Bible 
study, do you remember hearing about the examination of law 
enforcement information sharing for how we could prevent these 
things from happening in the future? Do you remember being 
called to testify? Or anyone at the Bureau that you know?
    Mr. Bowdich. I do not, sir. But in fairness I was in Los 
Angeles running our Los Angeles Office at the time, so I 
probably was not as tuned into Washington----
    Mr. Richmond. Well, I will help you. This committee did not 
have a hearing on the failure of the Background Check System to 
prevent a crime that was easily preventable if we had better 
information sharing. Now, I know that we are a product of our 
life experiences. And I know we have different life 
experiences, but I am going to ask you this anyway. You 
probably cannot answer it in your official capacity, but maybe 
you can. And I want you to use your recollection of your 
experience on the job. Had this kid's last name been Muhammad, 
do you think that the follow-up would have been a little bit 
more thorough?
    Mr. Bowdich. Congressman, I cannot speculate on 
hypotheticals. What I can tell you is whether this kid was 
Smith, Cruz, or Muhammad we would have expected certain actions 
to take place. In this case, they did not. And the last name, 
and the ethnicity, and the background, and the religious faith 
should not matter. And we do not attribute that to what 
happened here.
    Mr. Richmond. I agree with you that it should not happen. 
But in my life experience, as a criminal defense attorney and 
as a young African-American male, it makes a big difference. 
And I think that that is one of the things we could address is 
the diversity in the FBI. But, too, making sure that we are not 
so distracted running after profiling that we actually 
concentrate on the bad actors. With that I will yield back and 
thank you.
    Mr. Sensenbrenner. The gentleman's time has expired. Before 
recognizing the gentleman from South Carolina, the chair will 
recognize for a unanimous consent request, the gentlewoman from 
Texas.
    Ms. Jackson Lee. I thank the chairman for his kindness. Mr. 
Director, I certainly associate myself with the assessment----
    Mr. Sensenbrenner. What is your unanimous consent request?
    Ms. Jackson Lee. Thank you, Mr. Chairman or Mr. Lieu. But 
while I am sitting here I have been getting a text on Austin. I 
really will need a briefing for those of us who are concerned, 
those of us who are from Texas and others, on the outright 
efforts of the FBI and ATF. I would like you to convey that to 
Christopher Wray. It is crucial. There is absolute panic in 
Austin. And we need to be able to be part of the understanding 
of the notice given to these citizens in Austin. There is 
absolute panic going on there now.
    Mr. Sensenbrenner. The message has been delivered.
    Chairman Goodlatte. Would the gentleman yield?
    Mr. Sensenbrenner. The gentleman from Virginia.
    Chairman Goodlatte. I thank the chairman. If the 
gentlewoman would like that briefing, we certainly do as well. 
And we will request it and make sure that it happens.
    Ms. Jackson Lee. I thank the chairman very much. And, Mr. 
Chairman, as soon as possible, thank you.
    Mr. Sensenbrenner. The gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman. Mr. Deputy Director, I 
am going to ask you leading questions. There are no trick 
questions. This is just my effort to go as quickly as we can. 
Anytime you have a hearing title that has the word 
``preventable'' in it, I think we owe it to our fellow citizens 
to discuss the limitations of our justice system. It is almost 
necessarily reactive. Something happens, law enforcement reacts 
to it.
    So for us to use the word ``preventable'' or to discuss 
preventing crime, of course, we want to deter it. Of course, we 
want to stop it before it happens, but our system was set up to 
be reactive. I want you and I to go back and start with the tip 
coming in, so all of our fellow citizens can understand, in 
theory, what could have been done. And then we can determine 
whether or not the result would have been different. The tip 
comes in, and you first analyze it to determine whether or not 
there is a Federal nexus, right?
    Mr. Bowdich. Yes, sir.
    Mr. Gowdy. All right, and that Federal nexus could be the 
fact that there are persons prohibited from possessing 
firearms. Agreed?
    Mr. Bowdich. Yes, sir.
    Mr. Gowdy. Including persons who have been adjudicated 
mentally ill and including persons who are users of a 
controlled substances. There also could have been some other 
Federal offense, other than a firearm, kidnapping, carjacking. 
So your analysts analyze that tip from a standpoint first and 
foremost of whether or not there was a Federal nexus?
    Mr. Bowdich. Correct, sir. Well sir, that is not 
necessarily correct. If there is not a Federal nexus yet there 
is an immediate threat to public safety, she would do often 
times what was called a warm hand-off, or a warm transfer where 
the supervisor would sometimes directly call the State or local 
agency and say, ``Hey, we got a problem here. You need to 
handle this.''
    Mr. Gowdy. We are getting to that right now. The first 
analysis is whether or not there is Federal jurisdiction, 
whether or not there is a Federal nexus for you to investigate.
    Mr. Bowdich. Correct.
    Mr. Gowdy. And if the answer to that is no, then you have 
an obligation, or have assumed an obligation, to notify State 
and local law enforcement. And in this case that was not done, 
is that correct?
    Mr. Bowdich. That is correct, sir.
    Mr. Gowdy. All right, let's assume that it were done. Let's 
assume you called the sheriff or the police chief if it 
happened in a municipality. What, from a law enforcement 
perspective, can that sheriff or police chief do with the 
information your analyst received?
    Mr. Bowdich. So sir, I do not know the State laws in 
Florida. If you look through the call, there was a time when 
the caller stated that Mr. Cruz was suicidal. And at that 
point, or at somewhere in that realm, during that realm, she 
actually engaged with the Parkland Police Department. I believe 
it was after that--I would have to look at the call again--but 
after that where he became homicidal and he started to talk 
about killing others.
    What could the State or local department, what could 
Parkland Police have done? I do not know the options that are 
available to them. There are, in many municipalities, the 
option to do a 72-hour hold. In this case, I do not know if 
that is an option, but they certainly could have gone out and 
conducted a welfare check.
    Mr. Gowdy. Exactly. And the good news is you do not have to 
be an expert in the law to know law enforcement can always go 
and talk to someone. You can always go either do a field 
interview if the subject is cooperative, you can show up at the 
house and do a knock and talk. That does not require any level 
of proof, right? You can knock on the door and say, ``Mr. Cruz, 
do you mind if we talk to you for a while?''
    Mr. Bowdich. Yes, sir. Again, I am owning our problems and 
our mistakes, whatever they did or did not do.
    Mr. Gowdy. I know, but when we have a hearing title that 
has the word ``preventable'' in it, I think we owe it to the 
jury, to our fellow citizens, to let them know what law 
enforcement can and cannot do. So, they can show up on the 
front porch and they can say, ``We would like to talk to you.'' 
And he has the right to either talk or not talk. They can also 
say we would like consent to search, right? I mean----
    Mr. Bowdich. That is always an option to any law 
enforcement officer to request that.
    Mr. Gowdy. Right. It is great if you have probable cause 
and, therefore, have a warrant. But you do not have to have one 
to ask for consent, right?
    Mr. Bowdich. You do not, sir.
    Mr. Gowdy. And assuming you do that consent and you find a 
firearm, what would have happened then?
    Mr. Bowdich. I am not sure. Again, you had an 18 year old 
with no felonies on his record who purchased seven weapons. Had 
they found one, two, or seven, I am not sure what the options 
would have been for them.
    Mr. Gowdy. You can notify the school district, and make 
them aware that threats have been made, correct?
    Mr. Bowdich. Yes, sir.
    Mr. Gowdy. Was that done?
    Mr. Bowdich. Not to my knowledge.
    Mr. Gowdy. All right, so the theme that I keep seeing--and 
you correct me if I am wrong. Well, I do not want to overlook 
the cruelty to animals. In some States, including South 
Carolina, that is a felony. So, had there been probable cause 
to believe that there had been acts of cruelly against animals, 
that could have been a way to at least put him in the system 
for some period of time awaiting bond before the crime took 
place, correct?
    Mr. Bowdich. Again, not knowing the laws of the State, I 
believe this was a rodent and/or a frog. I am not sure how that 
factors in.
    Mr. Gowdy. All right, I am out of time.
    Mr. Sensenbrenner. The gentleman from Virginia, Mr. 
Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. Director 
Bowdich, was the agent supervisor at CJIS aware of the other 
Guardian lead from the YouTube comment left by Cruz that he was 
going to be a professional school shooter?
    Mr. Bowdich. That is what I do not know, sir. I know there 
was a dialogue, a presentation, made to him by the customer 
service representative, the call taker. I do not know if she 
told him about that Guardian.
    Chairman Goodlatte. So, that call that came in from the 
neighbor, which was sometime after he had made that post about, 
``I am going to be a professional school shooter,'' even now, a 
month after this shooting, we do not know whether the two 
things were shared between----
    Mr. Bowdich. We do not because we have different 
recollections. We know she found it. But I do not recall----
    Chairman Goodlatte. ``She'' being?
    Mr. Bowdich. ``She'' being the call taker. She found that 
Guardian. What I do not recall is did, and I do not think we 
know, is did she tell him about that Guardian. They have two 
different recollections about what was said, probably because 
of the volume.
    Chairman Goodlatte. Volume of calls?
    Mr. Bowdich. That they are taking every day.
    Chairman Goodlatte. Right. Did the intake specialist at the 
FBI's public access line at CJIS check to see if any derogatory 
information about Cruz, such as arrests, convictions, et cetera 
existed within NCIC before closing the case?
    Mr. Bowdich. She did, sir. She did the standard database 
checks. I know she checked in our Sentinel Case Management 
System she checked our Guardian Case Management System, and I 
believe she checked in DIVS, which is essentially an aggregator 
of many different databases.
    Chairman Goodlatte. So, if there had been charges of 
criminal activity--for example, the allegation that Mr. Cruz 
threw his mother up against the wall, which many people would 
say is a crime of domestic violence, which if it were in a 
database would not only be something of concern when she pulls 
that up, but it separately it also. If he had been charged and 
prosecuted would have gone into the NICS System if the State of 
Florida were providing all the information that needs to go 
into the NICS System, and, therefore, would have come up when 
he attempted to buy firearms.
    Mr. Bowdich. Yes, sir. So, had there been a domestic 
violence conviction that would have been a prohibitor, which 
would not have allowed him to purchase a firearm.
    Chairman Goodlatte. And what is the FBI doing to ensure 
that the NICS System contains the most up to date accurate 
information concerning crimes and their dispositions?
    Mr. Bowdich. Senator, the Attorney General recently put out 
guidance and directed Federal agencies to ensure we are--and 
particularly the FBI--reaching out and establishing the best 
relationships we can with our State and local partners, which 
are already very strong. But we are asking for them to include 
their dispositions.
    That is where we are vulnerable is a lot of the 
dispositions of some of these crimes are not being reported to 
NICS, so they are not going in. So, we are doing the best we 
can to. We are having a series of meetings, we are messaging 
it, will message it at the IAC, the International Association 
of Chiefs of Police, and have done this in the past. There is 
working groups to address it. And we are continuing to go out 
and message the importance of all those dispositions coming 
into the NICS System.
    Chairman Goodlatte. The age of Mr. Cruz at the time of this 
shooting was 19.
    Mr. Bowdich. Yes, sir.
    Chairman Goodlatte. But some of the earlier events he would 
have been under 18.
    Mr. Bowdich. Yes, sir.
    Chairman Goodlatte. Is there a problem with some State laws 
not putting into the NICS System acts of violence, or mental 
health commitments that occurred if somebody under 18 that 
really should get in there? And this would be a good example of 
that.
    Mr. Bowdich. I do not know the answer, sir. I do not know 
the State laws on that.
    Chairman Goodlatte. Can you describe the difference between 
a Guardian lead and a criminal complaint? A D71?
    Mr. Bowdich. Yes, sir. A complaint is a charging document. 
A Guardian lead is when we receive a tip or a lead, and, in the 
past, it has been if it is a counter terrorism lead we would 
create what is called a Guardian. And that would go out to our 
field office. Once the field office receives this lead, the 
investigators get it and they are under very strict deadlines 
to address it very quickly. They have certain databases they 
have to check. And we do random auditing of all those Guardian 
leads to ensure that they were properly reviewed and followed 
up on.
    Chairman Goodlatte. My time has expired.
    Mr. Sensenbrenner. The time for the gentleman has expired. 
The gentleman from Louisiana, Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman, and 
Director Bowdich for being here today. In previous briefings 
you mentioned that a section 2703(d) court order had not been 
submitted to the private company. In this case it was Google, 
which owns YouTube. Could you explain for us in further detail 
how the FBI determines if a 2703(d) is appropriate to pursue 
during an investigation?
    Mr. Bowdich. Yes sir, Congressman. So, my understanding is 
a 2703 is more of a companion statute. It is actually 2702 
letter. So, what that letter is is if we were trying to obtain 
subscriber information we can submit a 2702 letter to a 
provider. That provider it has the option to either respond 
with that subscriber information or not. If they do not, the 
next possible step for our investigators would be to go to the 
U.S. Attorney's Office and seek a Grand Jury subpoena to 
compel. The first one is noncompulsory process, second part is 
compulsory.
    Mr. Johnson of Louisiana. In this case, do you know if the 
2702 letter was considered by the Jackson field office, 
Mississippi, in the initial investigation?
    Mr. Bowdich. It was not done, sir. The agent and the task 
force officer, they conducted an interview they conducted 
standard database checks. They did find a Guardian from our 
Houston Office where the term ``school shooter'' was used on 
social media. Our investigating agent called another agent in 
Houston, they quickly realized that it was used as a term in a 
joke on social media, and that took him off that trail. So, 
that one washed out. He did, however, conduct additional 
database checks.
    Did he have the option, and could he have with the facts as 
he had them, submit a 2702 letter for the YouTube channel 
subscriber information? Yes, he could have, and he did not.
    Mr. Johnson of Louisiana. Hindsight is 20/20 I guess, 
right?
    Mr. Bowdich. Yes, sir. Hindsight is 20/20 Congressman, but 
I would have preferred he did. Because it could have 
potentially led to, we do not know that; but it could have 
potentially led to us obtaining subscriber information.
    Mr. Johnson of Louisiana. Is there a way to ensure that it 
is more carefully considered, or handled differently, in the 
future?
    Mr. Bowdich. Yes, sir. That is actually part of the 
Guardian review.
    Mr. Johnson of Louisiana. Okay.
    Mr. Bowdich. I mentioned during the initial briefing we 
launched two inspection teams. One was for our CJIS PAL line, 
the other was to look at our Guardian review process. Part of 
that that we came back with a recommendation on is we need to 
increase the acumen of all our investigators on social media 
scrubs; also, on use of social media in general.
    Mr. Johnson of Louisiana. Does the FBI have any information 
about a possible tie between Cruz and ISIS? I know that has 
been talked about maybe----
    Mr. Bowdich. We do not, sir.
    Mr. Johnson of Louisiana. Has ISIS claimed responsibility 
for the Cruz----
    Mr. Bowdich. Not to my knowledge, they have not.
    Mr. Johnson of Louisiana. Do you have any information about 
whether or not he may have been inspired by ISIS to commit 
these atrocities?
    Mr. Bowdich. We have not seen any indications of that at 
this point.
    Mr. Johnson of Louisiana. During the initial vetting and 
dissemination of possible leads and tips that were received 
through the public access line, do FBI special agents take into 
account whether State or local law enforcement agencies have 
open investigations into the lead or the tip that is received? 
You may have said this already this morning, but I was out.
    Mr. Bowdich. Well, what we are looking for, so I will give 
you a great example. The other day I sat on a call, it was a 
couple weeks ago with one of our call takers, and the woman 
very quickly said, ``They are trying to steal my kids.'' As you 
listen to it, it takes a number of minutes; I realize she has 
some mental health issues.
    Another one, right after that was where a gentleman was 
talking about a protective order, a restraining-type order. And 
I realized this is a domestic violence matter. In that one it 
was more of a complaint it was not an exigent circumstance. So 
our call taker asked him to call his local police department. 
Had that been something like, ``He is breaking into the house 
now. He has got a restraining order,'' we would have done a 
quick warm hand-off to the local jurisdiction to ensure that 
they know about that.
    Had it been purely Federal, and whether or not they had an 
open investigation would have been determined. Once that 
Guardian lead gets cut goes to the field office, then our 
investigators would very likely find whether there was an open 
local or State case.
    Mr. Johnson of Louisiana. And that protocol is followed as 
a matter of policy, I guess, pretty regularly?
    Mr. Bowdich. Yes, sir.
    Mr. Johnson of Louisiana. I will yield back. Thank you, Mr. 
Chairman.
    Mr. Sensenbrenner. The gentlewoman from Alabama, Ms. Roby.
    Mrs. Roby. Thank you very much. And I too, like my 
colleagues here, are very interested in the policies and 
procedures where mistakes were made, but how do we move forward 
in looking at changes and new procedures and policies, 
particularly as it relates to communications with State and 
local officials; the future being now.
    I am very interested in a continuation of the dialogue that 
my colleague from South Carolina had started. And so, I am 
going to yield my time to him so he can finish his line of 
questioning. I think we are all trying to get at the same 
thing, so I yield to the gentleman from South Carolina.
    Mr. Gowdy. I thank my friend from Alabama.
    Mr. Sensenbrenner. The gentleman is recognized for 4 
minutes and 20 seconds.
    Mr. Gowdy. Thank you, Mr. Chairman. Let's go back to this 
notion of preventable crime, because I think that is what 
everyone wants to know is at what stage could this have been 
prevented? But they want this conversation to be honest and 
frank, which means that we are going to have to go through the 
specific facts.
    When you and I left; local law enforcement, assuming there 
is no Federal nexus, no Federal jurisdiction; it is a warm 
hand-off to local law enforcement. They can show up at the 
home, they can do a field interview. In theory, you can do 
surveillance, right? I mean, you do not have to have a warrant 
to follow someone in the car.
    Mr. Bowdich. Yes, sir.
    Mr. Gowdy. So, you can ask for consent to search. All of 
that could have been done was not done, correct?
    Mr. Bowdich. Yes, sir.
    Mr. Gowdy. All right. So, when we are evaluating ways to 
prevent crime two things leap out to my mind. Number one, the 
predicate offenses that have been discussed just this morning. 
My colleague from Virginia, Mr. Goodlatte, made a reference to 
domestic violence convictions as being a prohibiting act from 
possessing, even a single bullet, much less an AR-15.
    You cannot possess a bullet, if you have been convicted of 
domestic violence. But it does not require a conviction. It can 
be a restraining order. You just made reference to a call about 
a restraining order. If there is a restraining order with the 
element of violence, that person is prohibited from having a 
single bullet, much less an AR-15. I know that you have title 
18 jurisdiction, but ATF usually investigates firearms 
offenses, right? Is that right? ATF usually does it.
    Mr. Bowdich. Yes, sir. We do them as well, but ATF they are 
the experts on firearm violations.
    Mr. Gowdy. All right, title 18 922(g); these are not my 
words these are the words of the statute. ``You have been 
adjudicated mentally defective or been committed to a mental 
institution.'' Do you know, or can you get for us, it is not a 
trick question, I am really interested in how many prosecutions 
over the last 10 years have taken place.
    Since there is a lot of conversation about mental health 
and mental illness, we have a statute that if you have been 
adjudicated mentally defective, or you have been committed to a 
mental institution, you are prohibited from possessing a single 
bullet, much less an AR-15. But if that statute is not being 
enforced, then it is not doing us a lot of good. Can you help 
us get the statistics on how many prosecutions there were under 
that clause?
    Mr. Bowdich. Congressman, I would have to defer, certainly, 
with Department of Justice and potentially with the ATF, but I 
will see what I can do.
    Mr. Gowdy. Is there anything about that statute that we can 
change, consistent with both substantive and procedural due 
process, but change that statute to the extent mental health is 
discussed a lot. Is there anything about that statute that you 
would recommend us looking at and/or changing under the heading 
of preventing crime before it happens? Prevent the homicide 
before it happens.
    Mr. Bowdich. Congressman, I am not in a position right now 
to make a recommendation on that. I would have to look at it 
carefully, and I would have to give it some thought, and I 
would have to talk to our lawyers, quite frankly.
    Mr. Gowdy. Will you do that for us?
    Mr. Bowdich. I am certainly willing to confer with 
Department of Justice about it, yes sir.
    Mr. Gowdy. All right. Also, you cannot possess a single 
bullet if you are a user, or habitual user, of controlled 
substances. Is there any evidence in this defendant's 
background that he was a user of controlled substances?
    Mr. Bowdich. I do not recall on that. I do not believe him 
to have been a habitual user. I do not recall if there is 
anything indicating additional drug usage.
    Mr. Gowdy. All right, well here are my two takeaways with 
less than 30 seconds. We need to be really fair and really 
upright with our fellow citizens when we talk about preventing 
crime. And we need to be really vigilant when it comes to these 
predicate offenses that a lot of my colleagues use the word 
``minor'' attached to. These predicate offenses sometimes when 
they are enforced; they help you enforce broader statutes that 
actually can prevent the crime. And we have got to look at 
title 18 922(g), folks who are prohibited from possessing even 
a single bullet; we have to make sure that we are enforcing 
those laws.
    Mr. Sensenbrenner. The gentleman's time has expired. And, 
Director Bowdich, you have been a trooper for almost 2 hours. 
And this has been very useful in explaining to us, and to the 
public, exactly what happened leading up to the tragedy in 
Florida. I, you know, wish you well on that. And I hope you 
will keep us up to date on how we can patch the problems that 
this tragedy showed existed within the FBI's notification and 
sharing of information, so that we do not have to have another 
tragedy again and look at it back on hindsight like we are 
doing now. So, thank you very much.
    Ms. Jackson Lee. May I thank you as well, Mr. Chairman.
    Mr. Bowdich. You may.
    Ms. Jackson Lee. May I associate myself with the words of 
the chairman. I think we have shown collegiality in commenting 
on these points of trying to save the lives of children. I will 
just offer, as I close, appreciation for your service, and the 
recognition that the FBI is working. It has its Achilles' heels 
that I hope that you will come back to us, and that we will not 
see this from that perspective again in terms of missing these 
very glaring situations.
    And, finally, let me say I think the FBI needs to lead on 
advocating for real gun safety legislation dealing with the 
elements of guns in the hands of children and others, and 
particularly assault weapons. With that, Mr. Director and Mr. 
Chairman, I want to thank you for your service to the Nation.
    Mr. Sensenbrenner. Okay, thank you very much, Mr. Bowdich.
    Okay, second panel is Sheriff Carter and Mr. Eden and Ms. 
Harper. Would you please, you know, step on up. Let the record 
show that all of the witnesses have been sworn. And we would 
like to ask each of them to summarize their testimony in 
approximately 5 minutes. And then, we will have another round 
of questions.
    And just to make it clear, we will set the order of 
questioning by seniority of those who are here now, and those 
who appear later will be below those who have had the patience 
to stay here now.
    So, Sheriff Carter, you are up. Thank you for coming.

   STATEMENTS OF TIMOTHY CARTER, SHERIFF, SHENANDOAH COUNTY, 
  VIRGINIA; MAX EDEN, SENIOR FELLOW, MANHATTAN INSTITUTE; AND 
 KRISTEN HARPER, DIRECTOR FOR POLICY DEVELOPMENT, CHILD TRENDS

                  STATEMENT OF TIMOTHY CARTER

    Sheriff Carter. Subcommittee Chairman Sensenbrenner, 
Ranking Member Jackson Lee, and members of the committee, my 
name is Timothy Carter. I am the sheriff of Shenandoah County, 
Virginia, and I have been given the privilege through election 
by the people of Shenandoah County to serve four terms as their 
county sheriff.
    I began my law enforcement career in 1986 as a police 
officer in the town of Blackstone, Virginia. And I thank you 
for the opportunity to talk with you today. My career has been 
in local law enforcement, and predominantly rural law 
enforcement. And I have worked hard to maintain a connection 
with the people that I serve.
    The people of my community expect their law enforcement to 
protect them, and to work with the resources that they have. 
They expect their law enforcement to reflect the community 
standards and culture. Shenandoah County, like many rural 
counties, has limited resources and a commitment to protect and 
serve the public.
    Years ago, after the Columbine shooting, our office changed 
our training, preplanning, and response to these incidents. The 
standards of training were primarily dictated by the 
Commonwealth of Virginia. But we also sent command staff to 
learn from the response, supervision, and management of 
critical incidents, including school shootings, by attending 
and researching best practices from other agencies, including 
those who had a history of such events.
    Training and preplanning for such events is a continual 
process. Immediately after the Sandy Hook incident, we 
experienced a disruption in a Shenandoah County school. The 
school superintendent and I held a community safety forum, 
actually three, after this event and we gathered public input 
on how to improve school safety, over and above what we were 
already doing.
    Two prevailing themes prevailed from the parents and school 
staffs, and they were that there needed to be facility security 
improvements, such as controlled access and camera system 
upgrades or installations. Secondly, there was an outcry to 
increase our local law enforcement presence in each school.
    Back then, in controlled access was a sign directing 
visitors to the main office when entering. Also, at the time, 
there were school resource officers assigned to the three 
Shenandoah County campuses, but not to each school.
    Since these forums, the sheriff's office and the Shenandoah 
County School Board have been working together to fund these 
initiatives. The case for facility improvements is complicated 
in our local county, in that the Board of Supervisors must 
provide funding. That process is ongoing and must be balanced 
with educational capital needs and other critical 
infrastructure needs. I ask that you continue to provide 
assistance through Federal funding in this area, understanding 
that these types of improvements are costly.
    Regarding staffing, the Shenandoah County Sheriff's Office, 
and the Shenandoah County Board of Supervisors agreed to fund 
the necessary deputy sheriffs to assigned law enforcement 
officers to each public school. After we received approval from 
the U.S. Department of Justice Asset Forfeiture Money 
Laundering Section, equitable sharing funds were used to 
initiate this effort. While the county gradually took over the 
local funding at the end of a 5-year period, the results were 
nine full time sworn law enforcement in nine public schools and 
one part-time sworn law enforcement in one public technical 
school.
    Not only were we able to complete this initiative and 
comply with the public demand for increased improved school 
security, we were able to bring the command and control of our 
law enforcement school resource officers under one 
organization, the Shenandoah County Sheriff's Office. Having 
the continuity of continued school security is critical.
    Prior to this initiative, we had three different law 
enforcement agencies assigned to three different schools in our 
School Division. Having all the school resource officers under 
the same command and control has many advantages, primarily 
consistency and continuity with school staff and school-related 
incidents, investigations, and responses.
    We do train our active shooter response with other county 
law enforcement agencies through mutual aid, as well as the 
Virginia State Police. We critique our crisis preplanning each 
year and keep it up to date with the Shenandoah County School 
Administration. These plans are used by all responding law 
enforcement agencies, as well as other emergency service 
providers.
    There are times when students, family members, or staff 
members are in crisis and incident information needs to be 
shared between agencies and jurisdictions. We work hard to 
create an environment where intervention is possible with 
students before any aggression or violence occurs. Having a 
cooperative agreement and record sharing system promotes this 
environment with agency information flow.
    Our deputy sheriffs assigned to the schools promote this 
environment with personal contact with students, families, and 
staff. Federal grant programs in these areas are critical to 
enhancing school safety and security. And I ask that you 
continue these programs and even increase Federal funding.
    I want to thank you all again for allowing me the 
opportunity to talk with you today. And I appreciate your 
service to your communities and to our country. Thank you.
    Mr. Sensenbrenner. I thank you, sheriff. Mr. Eden.

                     STATEMENT OF MAX EDEN

    Mr. Eden. Mr. Chairman, Ranking Member Lieu, it is a shame 
that death must come to the suburbs before America can have a 
national conversation on preventing school violence. In recent 
years, our schools have looked the other way on violence, 
because that is what we have told them to do. And so long as 
that violence was in urban schools, the media was happy to look 
the other way too.
    But now, the public must finally reckon with the Federal 
policy that, in essence, tells teachers and principals, ``If 
you see something say nothing, because if you do something you 
might be the one to get into trouble.'' Nikolas Cruz was 
Parkland's worst kept secret.
    Yet despite a string of alleged incidents, including 
assault, cyber stalking, weapons, and death threats, he was 
never arrested. Why not? Well, Broward Superintendent Runcie 
declared, ``We are not going to continue to arrest our kids.'' 
Sheriff Scott Israel said, ``We will judge our success by how 
few kids we put in jail.'' Numbers first, safety second.
    After over two dozen infractions and a failed effort at 
involuntary commitment, the school developed a plan. ``Do not 
let Mr. Cruz come to school with a backpack, because he might 
shoot up the school.'' Shortly thereafter, he committed an 
assault. Now, it used to be before this reform there were four 
levels of assault, and you could have a law enforcement 
referral for three of them.
    After, there were three levels of assault, and you could 
only have a law enforcement referral for one of them. Mr. Cruz 
was not referred to law enforcement at this time, according to 
records. And even if he were, Broward Sheriff's Union 
President, Jeff Bell, says that ``His school resource officer's 
hands were tied, because the schools did not want the bad 
numbers.'' This matter is far beyond Broward County.
    Superintendent Runcie has said, and I quote, ``Some of my 
staff joke that the Obama administration might have taken our 
policies and framework and developed them into national 
guidelines.'' That is not funny, because it is not a joke. 
Shortly after Broward adopted these see something, say nothing 
policies, the Obama administration issued a Dear Colleague 
letter to force school districts across the country to follow 
Broward's lead.
    Schools were put on notice. Even if your rules are fair and 
administered fairly, you could face a Federal investigation for 
unlawful discrimination if different groups broke those rules 
at different rates. In other words, get your numbers down or 
else. ``Or else'' faced an investigation intended to force you 
to get your numbers down. Internal documents make this 
explicit. Investigators were on a mission to force school 
districts to drop traditional discipline.
    These so-called investigations hit hundreds of school 
districts serving millions of students would appear to be a 
nationwide grassroots rethink of school discipline was, in 
reality, largely engineered through coercion in secret by 
bureaucrats in the Department of Education. Now, there is no 
doubt they meant well. They were concerned that minority 
students were being punished unfairly, and that these 
punishments were having long-lasting effects. And, of course, 
our schools must make every effort to avoid discrimination, and 
to foster a positive culture.
    But you cannot make schools more fair and loving places by 
striking fear into the hearts of principals and teachers. Faced 
with pressure to get the numbers down, the easiest path is to 
simply not address, or to not record troubling even violent 
behavior. And we have seen this, according to teachers, 
systematically in districts from Washington, D.C. to Buffalo to 
Denver.
    Teachers are afraid to speak out. They fear retaliation 
from the district. They fear accusation from the media. But 
where their unions give them a voice, teachers tell the same 
horror stories; principals doing nothing to address disorder, 
hiding evidence of violence, even willfully excusing clear 
death threats.
    When this was an urban problem, neither party wanted to 
talk about it; Republicans, because it did not hit their kids; 
Democrats, because it did not fit their narrative. This 
pressure must stop. Schools do not become safer when adults 
cannot punish bad behavior. Schools do not become more caring 
cooperative places through fear and coercion. Schools can only 
become safer and more supportive by allowing teachers, who love 
and care for their students, to do what they think is right. 
And it is about time for Washington to stop blaming teachers 
and start trusting them instead.
    Mr. Sensenbrenner. Thank you very much. Ms. Harper.

                  STATEMENT OF KRISTEN HARPER

    Ms. Harper. Chairman Sensenbrenner, Ranking Member Jackson 
Lee, and members of the subcommittee, thank you for holding 
this hearing on how our Nation can prevent violence, and keep 
our young people safe in school. I am here on behalf of Child 
Trends, a Research Institute known for rigorous and objective 
research which over the last four decades has served as a 
resource to office holders of both parties. I am grateful for 
this opportunity to help ensure that research about how to 
safeguard school environments prevents misguided public policy.
    The Parkland shooting is uniquely painful, because it 
seemed preventable. This is the time for probing questions. 
What was done? What was not done? What might have been done 
that could have prevented this shooting? As I am representing a 
501(c)(3) organization, I cannot provide suggestions regarding 
legislation. However, I offer the subcommittee three broad 
recommendations.
    First, anchor your work with knowledge of trends in school 
safety over the last 2 decades. From 2000 to 2015, school 
associated youth homicides neither increased, nor decreased 
discernibly from 26 deaths in 2000, to 40 in 2005, to 28 in 
2015. Meanwhile, youth-reported risk behaviors have shown a 
marked improvement.
    Weapons carrying in a 30-day period have decreased 
significantly from nearly 12 percent of youth in 1993, down to 
6 percent in 2003, and 4 percent in 2015. The prevalence of 
physical fights on school property has also improved from 16 
percent in 1993, to 13 percent in 2003, down to 8 percent in 
2015. Although recent tragedies have refocused our attention on 
keeping students safe, we must acknowledge that something is 
already working to help schools become safer, less violent 
spaces. We must be careful not to derail existing efforts.
    Second, prioritize approaches that will help schools to 
prevent school shootings, not merely defend against them. 
Rather than invest in school security, we can invest in adults 
and young people. We can support programs and interventions 
that build school communities where there is mutual trust.
    And why does this matter? Children with a strong connection 
to school staff do not bring weapons to school. When students 
feel a sense of attachment to their school or to the adults 
within the school, they are more willing to report the presence 
of weapons. To say we should invest in both school security and 
school climate is a good answer but requires a willingness to 
increase total investment in school health and school safety. 
Too often, schools are provided only limited resources to 
address school safety and are, therefore, more motivated to 
reach for easy and visible security measures than engage in a 
thoughtful prevention process.
    Third and finally, examine how recent school discipline 
initiatives have complemented the goal of improved school 
safety. Some have asked whether the 2014 Dear Colleague letter 
on the nondiscriminatory administration of discipline, which 
sought to address disproportionate discipline for children of 
color, is to blame for the Parkland shooting and other violent 
incidents. There is no logical connection between the two.
    To address discipline disparities, the Federal school 
discipline guidance, as well as the 2014 Council of State 
Governments school discipline consensus project, encouraged 
schools to distinguish between violent and nonviolent behaviors 
and to use disciplinary approaches that are fair, 
proportionate, and equitable.
    To be clear, schools already administer discipline for 
violent behaviors at rates that are similar across racial and 
ethnic groups. However, schools discipline children of color 
for minor behaviors more frequently than white students. And 
behind the numerical disparities are children whose safety and 
welfare have been placed at risk.
    In 2014, a sheriff's deputy placed handcuffs on an 8-year-
old Latino boy and a 9-year-old Black girl behind their backs 
and around their biceps, causing agonizing pain, for attempting 
to leave an isolation room.
    In 2015, a police officer flipped a Black high school 
student over backwards while she was seated in her chair, 
breaking her arm, after she refused to leave the classroom. The 
students in these incidents were not carrying weapons, did not 
express interest in carrying weapons, and presented little 
credible threat to peers and school staff. And these were just 
incidents that were captured on video.
    Neither the purpose nor the letter of the Federal school 
discipline guidance restrict the authority of school personnel 
to remove a child who is threatening school safety. What is 
more, the documents highlight the critical role that law 
enforcement serve in safeguarding school environments from 
threats too dangerous for school personnel to handle.
    I will close with this statement. There is no conflict 
between our obligation to prevent discrimination based on race 
and our obligation to keep children safe in school. We can and 
must do both. Thank you for this opportunity to testify, and I 
am happy to answer your questions.
    Mr. Sensenbrenner. Thank you, Ms. Harper. I am going to 
recognize myself for 5 minutes. And I am not going to direct, 
at least at the beginning, a statement, or a question to a 
specific witness, but please feel free to jump in.
    I think one of the things that we are all concerned about 
is dealing with students who have mental health issues and who 
have a propensity for violence. And, certainly, Nikolas Cruz 
was one of them. And what can be done, you know, specifically 
to get a student like this the help that he or she needs, and 
at the same time, protecting everybody else?
    The law on involuntary commitments or involuntary 
treatments is you have to be a danger to yourself or a danger 
to others for that to take place. Here with Mr. Cruz, you know, 
he was throwing his mother against the wall. He was throwing 
chairs at other students and making threats without overt 
actions that he wanted to shoot up the school.
    Now, when should the time come for someone to get a mental 
health evaluation, either voluntarily or involuntarily, to make 
sure that this type of behavior does not escalate into what we 
saw in Florida last month? Who wants to go first?
    Sheriff Carter. I do not know who wants to go first. I will 
answer. I will try to answer the question.
    Mr. Sensenbrenner. Sure.
    Sheriff Carter. I do not have all the data, Mr. Chairman, 
on all of the incidents with Mr. Cruz, but in our jurisdiction, 
we have what is called CHINS petition. It is a Child in Need of 
Services. It is obvious to me that this was a child who needed 
services at some point. Now, at what point is that? You know, I 
guess it depends on the jurisdiction.
    But, I mean, from what I can hear about the number of calls 
and number of interactions, if there were not any probable 
cause for making criminal charges, then, at least, someone 
should have been requiring the child to receive services. And 
that would be through a court.
    Mr. Sensenbrenner. Well, somewhere along this timeline, 
Cruz turned 18. So he was not a child anymore.
    Sheriff Carter. Right. Well, that is true.
    Mr. Sensenbrenner. And I know it is harder to deal with a 
bad adult than with a bad kid on this.
    Sheriff Carter. Right.
    Mr. Sensenbrenner. But obviously, what he was doing, you 
know, showed that he had the propensity to harm others and 
attempted to do so. And he was making threats, or boasts, or 
however one wants to describe them, that he wants to become a 
professional school shooter. And I think that what we are 
looking at, from our standpoint, is when an intervention should 
be made before a school gets shot up and there are a lot of 
innocent lives that are tragically lost.
    Sheriff Carter. Again, I cannot talk for other 
jurisdictions. Basically, in my jurisdiction, it is understood 
if a law enforcement officer within my jurisdiction, whether it 
is a school resource officer or not, receives information, 
whether it is a rumor, whether it is a tip, whether it is an 
actual formal complaint, everybody gets up that night, and we 
basically start to follow up on this information.
    It may be that you have to go to the house and do a 
consensual search. It may be that you do find probable cause to 
make a criminal charge. Maybe you do not. But at least, the 
parents of the child, the school principal, the school 
superintendent, law enforcement officers working at the school 
all know about this prior to that event.
    I mean, we have had, literally, social media rumors that we 
have had to basically sit down and track those things down, you 
know, with several people. I mean, going from one rumor, ``I 
heard it from here,'' ``I saw it on Snapchat from there,'' over 
and over and over to the point where you basically try to 
resolve ``is this just a rumor, or is there a real threat?''
    But the answer is everybody is awake, everybody knows about 
it, and let's go ahead and get the job done and do follow-up. 
That is our position on it.
    Mr. Sensenbrenner. Thank you very much. I yield back the 
balance of my time. The gentlewoman from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. I 
would ask unanimous consent to submit into the record a letter 
from the chairman of the Congressional Black Caucus, Mr. Cedric 
Richmond, dated March 20th, 2018.
    Mr. Sensenbrenner. Without objection.
    Ms. Jackson Lee. Also, a letter to Secretary Betsy DeVos 
dated March 15th, 2018 from the ranking member of the Committee 
on Education and the Workforce.
    Mr. Sensenbrenner. Without objection.
    Ms. Jackson Lee. Let me read from a statement from the 
superintendent of Broward County. And let me, again, Mr. 
Chairman, ask to submit this statement, March 19th, 2018.
    Mr. Sensenbrenner. Without objection.
    Ms. Jackson Lee. In his statement, he indicated, ``Please 
note, contrary to media reports, the district has no record of 
Nikolas Cruz committing a PROMISE-eligible infraction or being 
assigned to the PROMISE while in high school.''
    His additional comments are, ``The district's collaborative 
agreement on school discipline, which was established in 2013, 
establishes guidelines and processes for handling nonviolent 
misdemeanor offenses on school campuses to eliminate the 
school-to-prison pipeline. It outlines for school personnel 
when it is necessary to involve law enforcement and when 
nonviolent offenses can be handled through school resources and 
programs such as the PROMISE program.''
    So the crux of the program is nonviolent misdemeanor 
offenses. It has also been assessed by the Committee on 
Education and the Workforce regarding Broward County that, 
instead, the county launched the Preventing Recidivism through 
Opportunities, Mentoring, Intervention, Support, and Education, 
PROMISE, that successfully decreased arrests by two-thirds for 
minor infractions and found that that 90 percent of students 
receiving counselling through the program do not repeat the 
behavior. It does not prohibit referral to law enforcement and 
still utilizes suspension and expulsion for serious 
infractions.
    So, Mr. Eden, what is your beef and complaint regarding 
former President Barack Obama and the Department of Education 
which he oversaw as the President of the United States? What 
connection are you trying to make?
    Mr. Eden. Absolutely, ma'am. So, I think the way that the 
school resource officer was talking about it was the way that 
these things need to be talked about. We need to have the 
adults who know these students come together and make a 
decision based on what they have in front of them, not based on 
a pressure that they face internally, or imposed on them from 
the top down, to just try to get these numbers down full-stop.
    Ms. Jackson Lee. And what evidence do you have of pressure 
coming from up top or down under for the Broward County? The 
superintendent made an independent statement. And do you have, 
as well, the numbers of disparities dealing with Latino and 
African-American children as relates to minor offenses 
receiving the brunt of suspensions and expulsions? Have you 
researched that number, as well?
    Mr. Eden. Yes, ma'am. So, in Broward County, that was a 
self-driven initiative.
    Ms. Jackson Lee. That is correct.
    Mr. Eden. This was before the guidance. This is Mr. Runcie, 
Sheriff Israel.
    Ms. Jackson Lee. That is correct.
    Mr. Eden. They get together, they say, ``We are going to 
get arrests down. We are going to declassify violent and 
nonviolent offenses, including affray.''
    Ms. Jackson Lee. I did not hear that in the 
superintendent's statement when I put in the record. He 
indicated nonviolent actions that would be under the 
jurisdiction of PROMISE, and he said that they would not 
interfere with any efforts to deal with law enforcement or any 
efforts where the child needed that attention.
    Mr. Eden. Sure. So, within the PROMISE agreement was a 
violent offense, affray. That is one thing. Another is that we 
have the words of the School Resource Officer Association to 
go. That their hands were tied, their discretion was stripped. 
That the school did not want the bad numbers on their record.
    Ms. Jackson Lee. I do not know whether it was a resource 
officer. I do not know what Mr. Peterson was. But Mr. Peterson 
stood outside and gave orders to people not to go in. I think 
that speaks to concerns about those actions. Ms. Harper, let me 
ask you about this idea of dealing with discipline and 
protecting our children. That is our chief responsibility. And 
how do you juxtapose the two, that we can have a fair system 
and not jeopardize the security of our children? And, 
particularly, should there be a blame on the so-called 
different perspective that the Obama administration put 
forward, but that Broward County put forward ahead of that 
report?
    Ms. Harper. Yeah. We knew full well from the research that 
the vast majority of the disparities on the basis of race in 
the administration of discipline is for minor offenses. Right 
now, schools discipline students across racial and ethnic 
groups pretty similarly when it comes to violent offenses. So 
if there is any pressure whatsoever on districts to rethink 
school policies coming from the discipline guidance, reducing 
suspensions for violent offenses would not improve disparities 
across racial and ethnic groups.
    But it also needs to be said that, you know, the letter of 
the guidance is its own best defense. The letter of the 
guidance contains nothing that restricts the authority of 
school personnel or the authority of law enforcement to 
intervene when a child's behaviors are becoming violent. In 
fact, there is, actually, explicit language in the guidance 
that says we should train school personnel to be able to 
distinguish between violent and nonviolent behaviors and 
determine when law enforcement need to be brought in.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee. Thank you.
    Mr. Sensenbrenner. The gentleman from Virginia, Mr. 
Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. Sheriff 
Carter, how do you handle a student who commits a crime of 
violence or sexual offense on school grounds? Do you think 
local law enforcement should be involved when these crimes 
occur?
    Sheriff Carter. Yes, sir, certainly. We would handle it 
like we would if it was off school grounds. I mean, collect 
evidence, determine if there is probable cause, and make a 
charge. So that is how we would handle that, whether on school 
property or off.
    Chairman Goodlatte. Mr. Eden testified that the Department 
of Education told school districts to formalize or revisit 
agreements with local law enforcement under the new 
understanding that the school could be held liable for 
allegedly discriminatory decisions. Would this have a chilling 
effect on their involving local law enforcement?
    Sheriff Carter. I know that we have agreements with our 
school system. Congressman, we have a relationship. When you 
have a school resource officer assigned to each school, I look 
at it like it is its own little community, its own little town. 
The law enforcement officer is the sheriff, and the principal 
is the town manager or county administrator.
    There are times, on minor offenses, where it may be 
appropriate to go ahead and try to deal with it outside the 
judicial system. Like, for example, we had a kid last week 
break a soap dispenser. Probably not going to charge that kid, 
because we believe that the discipline that the school can 
enact would be more than what we would get in the court.
    But at the same time, we draw the line when it comes to 
violent offenses and serious crimes. But things like that, if 
you have that relationship with the principal and the school 
district, I believe you can work those events out.
    Chairman Goodlatte. Do you think the school administrator 
should have to do that calculation when there is some violent 
event taking place at the school before they decide to call the 
police?
    Sheriff Carter. No, Congressman, if the school resource 
officer and law enforcement have a relationship with the school 
system, have a relationship with the principal, there ought to 
be a free flow of communication constantly. And if there is 
that free flow of communication, that law enforcement officer 
should be brought in on the early end, not on the back end, and 
you will not have to worry about trying to, for lack of better 
words, clean up an investigation later on.
    I do think there is, sometimes, and we see it with young 
staff, from time to time, they go through and they have to go 
by and check the box each time. ``Well, I have got to get this 
done, I have got to get this done.'' And I think if you are not 
using common sense and talking with the people that you are 
working with----
    Chairman Goodlatte. You are going to miss the target.
    Sheriff Carter. Yes, sir. I think so.
    Chairman Goodlatte. Mr. Eden, I agree with Ms. Harper that 
we can accomplish both of these goals of making sure that 
people are not discriminated against based on their race or 
ethnicity. At the same time, we can keep school children safe. 
I think that is a good principle. What does the research say 
about how schools have been impacted by the policy shift that 
you described, however?
    Mr. Eden. So the research is just catching up to it, but 
the signs are fairly uniformly negative. There have been two 
academic studies, one out of Philadelphia where they tried to 
ban suspensions for willful defiance. Academic proficiency 
dropped by about 5 percent in reading and math. After the ban, 
truancy rose by about 16 percent. And perhaps the reason why 
was that serious offenses rose, even after willful defiance 
suspense's were banned. And, at the end of the day, African-
American students spent more time out of school on suspension 
after the ban on willful defiance because of this rise in 
serious incidents.
    The other major academic study comes out of Los Angeles, 
where they fully implemented a willful defiance suspension ban. 
Schools that had 10 or more willful defiance suspensions before 
the ban that were forced to end them, lost about a third of a 
year's worth of academic growth. So, those are the two academic 
studies, then past that, we have surveys.
    We ask students, ``Do you feel safe? Are there fights? Do 
you feel respected?'' And where we have the before and after, 
we see a negative shift. We see more students saying that they 
feel disrespected. Fewer students saying that they feel safe. I 
absolutely agree that we must balance these two things. We must 
balance, like, keeping a firm hand and not discriminating.
    Chairman Goodlatte. Let me ask you one more question. Do 
teachers or parents ever reach out to talk to you about this 
issue?
    Mr. Eden. Yeah, kind of by email and Facebook. A mom from 
Maryland shot me a message the other day saying that her school 
resource officer was terrified to talk about this issue. That a 
teacher said to her, ``Yeah, well the discipline stats are not 
accurate. It is double or triple those darned stats, because 
they intentionally make up their own forms to use instead of 
using the actual referral forms.'' And she said that, when she 
went to school after her son was threatened, that the school 
did not help her file a police report. And when she went to the 
police officer, they said, ``Yes, ma'am. Your son will have to 
go off-campus before he calls us, otherwise, we cannot go in 
there, and we do not know what is going on there.''
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. Ms. Harper, if the 
guidance issued by the Obama administration were rescinded, how 
would the responsibility of schools to address disparities in 
implementing discipline be different?
    Ms. Harper. Rescinding the guidance, I think, would cause a 
lot of confusion for schools on what their obligations are 
under Federal civil rights laws. I think most schools are 
pretty clear that you may not treat students differently based 
on race. You cannot have a policy on the books, you know, apply 
that policy to one student, not apply it to a different 
student. I think most folks have that clear. They may not be as 
aware that you may not implement policies that have disparate 
impacts based on race that do not serve an important education 
goal, and for which, there are alternatives that could serve 
that goal.
    At the same time, I think the States and districts have 
been following the research on school discipline and know now 
that suspensions not only harm children but are not necessary 
and do not improve student behavior, especially when it comes 
to minor misbehaviors. And so, I think, right now, we have 
States and districts across the Nation that are responding to 
that research and trying to find ways to support educators so 
that discipline is improved.
    Mr. Nadler. I am not sure I follow you. So, in other words, 
they often respond to that research, and therefore, we do not 
need the guidelines from the Department, or the Department adds 
to that?
    Ms. Harper. The Department adds to that. So, in the midst 
of, you know, changes at the State and local level. I mean, we 
just had Maryland and Texas last year pass bans on suspension 
and expulsion from preschool through third grade, for example. 
We have State and local officials that recognize that something 
needs to shift on discipline. However, when a school or when a 
district is discriminating on the basis of race, that is when 
the Federal guidance becomes necessary.
    Mr. Nadler. Okay. And do you think the increased presence 
of law enforcement in schools makes students safer?
    Ms. Harper. The research does not support the conclusion 
that additional law enforcement presence on schools makes them 
safer. We do know that increased law enforcement presence in 
schools increases criminalization of student behaviors. You 
place an officer in schools, you have higher rates of reported 
crime. But it is not like those rates----
    Mr. Nadler. The research results are counterintuitive, in 
other words.
    Ms. Harper. You cannot conclude from current research that 
having law enforcement in schools makes students safer.
    Mr. Nadler. Thank you. Mr. Eden, can you point to specific 
language in the Obama administration's guidance on school 
discipline that prevented law enforcement from taking any 
action with respect to the Parkland Florida shooter?
    Mr. Eden. As Ms. Harper said, there is no language in the 
text of the guidance that would interfere directly in the 
administration of a violent offense. However, in the internal 
guidance given to investigators, school districts were told by 
OCR that they had jurisdiction to review all actions taken by 
law enforcement officers with an eye towards finding any 
alleged discrimination. So, whereas in Broward County, no, they 
moved before this. The guidance came after. The guidance 
applied to other districts who adopted [sic] it voluntarily. 
The guidance made other districts do coercively.
    Mr. Nadler. I do not follow you.
    Mr. Eden. Yes.
    Mr. Nadler. Guidance came after what?
    Mr. Eden. Broward County adopted this policy in the fall of 
2013. The guidance then, as Runcie said, took these principles, 
these frameworks, and said to districts, ``You have to adopt 
these or else we----''
    Mr. Nadler. Okay. Did that guidance prevent the authorities 
from taking any action with respect to the shooter?
    Mr. Eden. There appears to be an inhibition on the use of 
law enforcement within Broward County.
    Mr. Nadler. When you say, ``there appears to be.''
    Mr. Eden. Yes.
    Mr. Nadler. Where do you draw that from?
    Mr. Eden. I draw that from the change in the discipline 
matrix. For example, it used to be the case that there were 
four levels of assault, and you could get referred to law 
enforcement for three of the four. Afterwards, they changed the 
discipline matrix that there were three levels of assault, and 
you could only get referred to law enforcement for the most 
severe level.
    Mr. Nadler. That is very interesting. That has nothing to 
do taking action against the Parkland shooter.
    Mr. Eden. It has something to do with why he was not 
arrested beforehand, and hence, as Mr. Bowdich testified, why 
there was no record on this very dangerous individual. That, 
despite all of these acts that he committed----
    Mr. Nadler. Because of that third level?
    Mr. Eden. That is the clearest instance. The question is: 
what was he doing in middle school? Mr. Runcie's statement has 
that loophole in it. And what other counselling was he given in 
response to his actions instead of arrest because of these 
policies?
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. And we, again, want to 
thank all three of the witnesses here for helping us to 
determine what is the best action for Congress to take with 
respect to this issue and let us better understand the true 
nature of the problem that we are all facing.
    And we actually did pass legislation recently. Congressman 
Rutherford was instrumental in that. We helped out, as did a 
number of other members, with suggestions. And it was put 
together and did a number of things, and I would like to hear, 
are we headed in the right direction up here? Especially, I 
think, from you first of all, Sheriff, if we could.
    You know, one of the things, for example, you mentioned 
funding. There is significant, more than doubling, of some of 
the existing funding in this Stop School Violence Act. Metal 
detectors are, you know, one example of something that, if 
school districts should determine that is the direction they 
want to go, they can use the funding for that for better 
identifying students who do have mental health issues and could 
be a threat to themselves or others, you know. And that clearly 
was one of the critical failures in this case was all the 
warning signs were there about this particular shooter, yet, 
unfortunately, very little was done to actually prevent him 
from doing the horrible thing that he did.
    Training for school officials to know how to better handle 
an active shooter situation, how to better protect students, 
principally, but also other school personnel in the building. 
The ability, if it is determined that it would provide 
significant improvement in security, additional police 
personnel, you know, school security officers.
    I had mentioned earlier that the head of my FOP, the 
Cincinnati FOP, had suggested that we hire retired police 
officers who oftentimes retire in their early 50's and could 
continue to serve the community for years to come. And that 
would be an excellent place for them to be, since they have 
received the best training, you know, available. And police 
officers, I do not want to just single out Cincinnati, but 
police officers all over the country, they would seem like the 
logical people to do.
    So, Sheriff, does it sound like we are heading in the right 
direction? At least from here, would those types of things be 
helpful, in your opinion?
    Sheriff Carter. Yes, sir. Funding increases would be 
helpful. I know that under the former funding levels, my 
specific school division has applied for funding and, for some 
reason, sometimes, I think, in rural communities, the funding 
comes later. It just seems like it does not get there very 
quickly. So, anything that can be done with regard to 
increasing funding, I think, is helpful. Even if it is just 
seed money to get programs off the ground. So, yes, sir, I do 
think that is a good start.
    Again, each school district is different. Each school 
division is different. I know in our school division, the two 
main issues that parents and schools wanted were they wanted 
controlled access into our schools, and they wanted more of a 
law enforcement presence.
    And our governing body, the Sheriff's Office, and the 
school board basically followed through on those commitments. 
Other school districts may be different. They may want 
different things. So, as long as there is funding available to 
improve those things, I know from a Shenandoah County 
perspective, that has been what we have been trying to.
    Mr. Chabot. Thank you very much. I have only got a minute 
left, so let me shift gears a little bit. The idea that I 
mentioned with the previous panel, or the point that I had 
mentioned, and that is about identifying our schools as so-
called gun-free school zones. You know, basically allowing 
those who have ill intent in their heart go to a place knowing 
they are going to be the only person armed there in many 
circumstances. I would welcome any input from any of the 
panelists. We have only got a, you know.
    Sheriff Carter. I think it is a value having enhanced 
penalties with regard to areas, whether it be drug trafficking 
or weapons violations within a school area. So, it does have 
some value there to make sure that you have those enhanced 
penalties.
    Ms. Harper. I would also add that the vast majority of 
school shooters are students. They are not strangers, they are 
not random individuals. They are people with connections to the 
school. Hence my earlier suggestion that our investments really 
should be in school climates and in student supports.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Mr. Chairman, I thank you very much, and thanks 
to our panelists. I am a little bit baffled about the turn that 
our proceedings have taken this afternoon, because, in the wake 
of the Parkland massacre, which I do insist upon calling a 
massacre, not a tragedy. ``Romeo and Juliet'' is a tragedy. 
``Hamlet'' is a tragedy. ``Macbeth'' is a tragedy. This was a 
massacre. This was basically gunfire terrorism that took place 
in our society.
    And I feel baffled now, because I believe in common sense. 
And 97 percent of the American people are saying they want a 
universal criminal and mental background check on all firearm 
purchases. That is within the margin of error of almost 
everybody in the country agreeing to that. And yet, we are not 
having a hearing about it.
    Two-thirds of Americans want to see a ban on AR-15s and 
military-style assault weapons in the country, which is what 
the young people all over America are calling for, and perhaps 
a million of them are coming to Washington this weekend to 
demand that. And yet, we are now caught up in a discussion 
about school disciplinary policy.
    So, let me start with this. Ms. Harper, do you think we are 
going to be able to solve the problem of gun violence in 
America by making tweaks to school discipline policies?
    Ms. Harper. I do not. I think most school policies are 
fairly clear about the consequences when a student engages in 
violent behaviors, and the current guide makes, also, clear 
that law enforcement need to be involved whenever there is a 
threat to school safety.
    Mr. Raskin. Are any of the panelists aware of a situation 
where a student brought a firearm or an AR-15 to school and 
were let go because of lax disciplinary policies?
    Mr. Eden. I am aware of many instances, several instances, 
where a student brought a knife to school and that was not 
punished, or in one instance, the knife was given back to him.
    Mr. Raskin. Okay, but in terms of my question. Are you 
aware of any cases where a student brought a firearm to school 
and, because of student disciplinary policies, were just sent 
home for the day, and it was never followed up upon?
    Mr. Eden. Not firearms. No, sir.
    Mr. Raskin. Okay. From Columbine, to Sandy Hook, to 
Parkland, all of the school shooters that, at least, I am aware 
of, and I may be missing some, but all of them have been white 
students. And I think white male students. So, Ms. Harper, can 
you explain to me why the solution to the problem of gun 
violence would be to weaken civil rights standards in school 
discipline policy in the country?
    Ms. Harper. There is no connection between the Federal 
school discipline guidance and the violence we saw in Broward 5 
weeks ago.
    Mr. Raskin. Do you believe, Ms. Harper, that if President 
Obama had never issued this obscure guidance that I never heard 
of before this hearing, do you think, had he not issued it, any 
of these school shootings would have been prevented? Would have 
not happened?
    Ms. Harper. I do not think there is any connection between 
the efforts to address racial and ethnic disparities in the 
administration of discipline that those efforts have nothing 
whatsoever to do with what we saw 5 weeks ago.
    Mr. Raskin. Okay. And is there anybody present on the panel 
who thinks that, had that guidance not been issued, that any 
specific school shooting would not have taken place? Okay. Mr. 
Chairman.
    Mr. Eden. Well, I think it would be interesting to see what 
comes out of the recent atrocity in St. Mary's County, because 
St. Mary's County adopted new discipline policies in the wake 
of the guidance. Last year, Hugo Morales took his own life 
after being bullied. And there was a townhall meeting where the 
parents complained to the superintendent, ``You are not doing 
anything about bullying. You are sweeping this under the rug. 
We cannot access you. You are not addressing the problems in 
our school.'' So, I do not know, but I fear, in this instance, 
that perhaps.
    Mr. Raskin. And in terms of Parkland, do you have any 
reason to think that the lack of this guidance would have 
prevented that, or in Connecticut? In Newtown, Connecticut? 
Sandy Hook?
    Mr. Eden. I think there is substantial reason to be 
concerned that, had Broward County not adopted this policy that 
soon became a coerced Federal mandate that the situation would 
have been handled differently over the course of several years 
and could have been prevented, yes.
    Mr. Raskin. Okay. Have you written something to that 
effect? Is there any research on that point?
    Mr. Eden. I have written something to that effect, and I 
believe there is going to be another piece forthcoming in the 
next couple days.
    Mr. Raskin. And it is based on research that you have done? 
I just do not see the causal connection.
    Mr. Eden. Sure. The causal connection is that the emphasis 
in these policies is to get the numbers down. You know, it is 
like ``The Wire'' HBO show. We know that we want to get this 
reduction. We have to get these numbers down. One way to do it 
is to just not punish, to not suspend, to not expel, to not 
refer to law enforcement.
    So, when we see a school district that has taken aggressive 
efforts to not refer students to law enforcement, we see a 
student who has acted insanely and violently and was never 
referred. At the very least, I think there is reason to be 
concerned that that dynamic might have been at play.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Florida, Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman. And to follow up 
on that, Mr. Eden, that is exactly what concerns me when law 
enforcement collaborates with school boards to not enforce the 
law. And so, Sheriff Carter, I would ask you, who makes arrest 
decisions in Shenandoah County?
    Sheriff Carter. I do not know if I understand. Who makes 
arrest decisions?
    Mr. Rutherford. Whether to make an arrest or not.
    Sheriff Carter. Right.
    Mr. Rutherford. That is a decision for law enforcement, 
correct?
    Sheriff Carter. Yes, sir. It is the law enforcement 
officer.
    Mr. Rutherford. And if you have a law enforcement agency 
that has given away their decisionmaking. Because look, I can 
tell you, it happened in Jacksonville, Florida. They wanted 
civil citations to be written for public affray. Those are 
violent events. And they did not want them reported, and they 
did not want arrests made in those cases. And so, you have 
violent behavior that escapes the view of law enforcement, and 
that is what concerns me about these relationships.
    And particularly, in this case, it appears that even law 
enforcement outside of the school had a situation where it was 
reported to them that this individual, Nikolas Cruz, had 
actually pointed a gun at somebody's head; threatened to kill 
them. That is aggravated assault. That is a felony. Now, the 
comment was made that the police did not arrest because the 
victim did not want to prosecute. But I can tell you, in the 
State of Florida, the victim agreeance to prosecution is not a 
requirement for an arrest.
    Sheriff Carter. Right.
    Mr. Rutherford. And I assume it is probably not in 
Shenandoah County, either. Is that correct?
    Sheriff Carter. Yes, sir.
    Mr. Rutherford. Which is exactly we passed all of these 
domestic violence laws, so that we no longer put it on the 
victim to have to come forward because of the relationship that 
they had with their abuser. And so, we made those laws to take 
it out of the hands of those domestic violence victims. And I 
think here, we have put arrest into the hands of those who have 
a reason not to want those numbers of arrests within their 
schools. And so, I see a real problem with that.
    Ms. Harper, the reason we drafted the Stop School Violence 
Act of 2018, working with the Sandy Hook Promise group, was 
because, as I often told my agency, my community, I did not 
want to be the best first responder to a mass casualty event. I 
want to prevent it before it occurs. And so, I was very glad to 
see in your writings here, you talk specifically about, you 
know, focusing on those individuals and finding their behavior 
and what is going on at these schools.
    You talk about, you know, we need to look at the negative 
school climate, the lack of school connectedness, involvement 
in bullying perpetration and victimization, association with 
social peers, low school performance. I agree with you 100 
percent. We need to teach our students, teachers, and officers 
what to look for in these individuals who have a propensity to 
become, you know, these mass casualty shooters down the road.
    And I also will tell you that we expanded that bill to also 
include toughening the target, because you mentioned that, as 
well. Not only do you want to look at the prevention issues as 
far as the building, but also focus on the individual. And you 
say that, you know, you think we can do both. And I would agree 
with you. In fact, I would say, not only we can do both, we 
must do both. And so, I appreciate those comments.
    But I just want to make the point that, in this case, and I 
told the FBI Deputy Director earlier, that, you know, I see 
personnel decisions in this case at the local, State, and 
Federal level. The Broward County Sheriff's Office. You know, 
nobody is even talking about the Parkland Police Department. I 
want to know what they did with the tip that they got, because 
the lady that made the tip to the FBI said she gave it to them, 
as well. What did they do with it? And so, there were so many 
personnel decisions throughout this that were wrong. But I 
thank you for being here today and sharing your testimony.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentlewoman from Florida, Ms. Demings, has been very 
patient, and she is recognized.
    Ms. Demings. Thank you so much, Mr. Chairman. Thank you to 
our witnesses for being here today. You know, what happened in 
Parkland, I think we all know all too familiar, that it was a 
tragedy--as my colleague from Maryland said, a massacre. And we 
have a right to understand what went wrong, what happened. When 
tragedy strikes, there is always a lot of finger-pointing going 
around. We have certainly done enough of that today. But I do 
believe today we have kind of hit an all-time low, actually.
    We do know, when we look at the life of this young man, a 
lot went wrong, long before February 14th. And I think, in all 
fairness to our witnesses and everybody else who was involved, 
when we talk about what went wrong, I think we, my colleagues 
and I, have an obligation to look at ourselves and our failure 
to do our job. To come up with meaningful gun control 
legislation that may have, just may have, prevented this 
tragedy and too many others like it around our Nation.
    Let's talk about Parkland, but then officers are responding 
to a shooting today. A shooting in an elementary school, 
shooting in a movie theater, shooting in a nightclub in my 
district, multiple shootings in churches.
    Mr. Eden, I would like to start with you. I know you are 
here today to talk about school safety, and I think we all 
would agree that what has happened and all of the other 
shootings had nothing to do with the school's disciplinary 
problem or policy. Could you just kind of shed some light, 
since you have done research on school violence, we can point 
to a policy for school shootings. What about the other 
shootings that have occurred around our Nation? What insight 
would you give in terms of the causes of those shootings that 
we failed to deal with, as well?
    Mr. Eden. Yeah. So most of these shootings are committed by 
people who are deeply mentally deranged and whom our system 
fails in ways that have more to do with the intersection of 
consequences and students' disabilities. So, it is an open 
question, having not reviewed the particulars. But I think, in 
this instance, what we can all agree on is that Nikolas Cruz is 
the kind of guy who should have never been anywhere near a gun.
    Mrs. Demings. As well as the Pulse nightclub shooter.
    Mr. Eden. Yeah.
    Mrs. Demings. As well as the shooter at the concert in Las 
Vegas.
    Mr. Eden. Absolutely.
    Mrs. Demings. As well as the shooter, probably, in Maryland 
today. Would you agree to that?
    Mr. Eden. Absolutely. Nowhere near a gun, and so, as we 
kind of walk through the failures, and I kind of bracket the 
gun conversation. I am not expert. I am kind of sympathetic, 
but it is not really my business. My business is, this policy 
of explicitly trying to push these numbers down can inhibit the 
good and fair judgment of school resource officers to issue 
arrests where they may be warranted. And those arrests then 
feed into the system in a way that could have been constructive 
in this case.
    Mrs. Demings. Okay, thank you, Mr. Eden. Sheriff Carter, 
thank you so much for being here. Thank you for your service. 
Could you talk a little bit about the reason why school 
resource officers were placed in the schools in the first 
place?
    Sheriff Carter. The reason they are placed there in the 
first place?
    Mrs. Demings. Years ago, when we put police officers in the 
school, what was the reasoning behind that?
    Sheriff Carter. My experience is, again, because of 
incidents of school violence, the public demanded to have law 
enforcement officers placed in schools.
    Mrs. Demings. Did it have anything to do with improving the 
relationship between local law enforcement and the communities 
in which they served, starting with our young people?
    Sheriff Carter. Yes, ma'am.
    Mrs. Demings. You talked earlier about some of the 
challenges. You said everybody comes together, the school 
officials and all, to deal with the problem had you received a 
tip, information, to see whether it was just, you know, fake or 
not. Could you talk a little bit about your process from 
receiving the information and then resulting in an arrest? What 
is kind of the steps that you would take in that process?
    Sheriff Carter. Well, when we receive the information, we 
have to validate the information.
    Mrs. Demings. And it does not mean, every time that you 
receive information, that it is going to lead to an arrest. Is 
that correct?
    Sheriff Carter. That is correct. You have to have probable 
cause to make an arrest.
    Mrs. Demings. And could you kind of explain a little bit 
for those who might know what that means?
    Sheriff Carter. Well, probable cause means that a 
reasonable person would believe that a crime either has been or 
is being committed. My point is, when we receive information, 
you have to follow up on the information. And you may have to 
wake people up, you may have to disturb people's family issues, 
things that they are dealing with. But we all know, let's get 
to the bottom of this, and let's find out is there a crime that 
has been committed or is going to be committed. What can we do 
about what we have heard? And then, you start that process, 
that investigative process.
    At the end of that process, if a crime has been committed, 
or you believe that there needs to be some law enforcement 
action taken above just a consensual search or above just an 
interview, then those things are done.
    Now, the one positive thing with regard to that 
relationship with school officials is, if you have no probable 
cause. Let's say you cannot make a charge. At least, then, the 
school officials know this rumor or this incident was connected 
to this child. It is what I mentioned earlier about that 
relationship between that school resource officer and that 
principal. You want to make sure that those people are 
communicating.
    In the event that you cannot make a charge, at least they 
know that maybe I have a behavioral issue here with this child. 
Maybe there is a family issue here with this child. But at 
least we know that there is something, some services that need 
to be directed towards the child, need to be taking place.
    Mrs. Demings. Thank you so much. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The time of the gentlewoman has expired. 
This concludes today's hearings, and thanks to all of the 
witnesses for attending. Yes, the gentlewoman from Texas.
    Ms. Jackson Lee. You were closing. Before you gaveled, I 
wanted to close or say a word. I do not know if you want me to 
say it now. Are you yielding to me now, Mr. Chairman?
    Mr. Sensenbrenner. Well, last time I yielded to you for 
unanimous consent request, you went a bit beyond that, so.
    Ms. Jackson Lee. I will be contained by my thank yous.
    Mr. Sensenbrenner. The gentlewoman is recognized for thank 
yous.
    Ms. Jackson Lee. I did not get a chance to pose a question 
to you, Sheriff Carter, but I was impressed by the work that 
you are doing. That you go after violent individuals, or you 
help us with school safety. And I want to make sure that you 
know that I appreciated it. And there is, Mr. Chairman, as I 
conclude, a distinction that I hope Mr. Eden will fully 
understand, maybe working with Ms. Harper, between the 
infractions that our children should be allowed to be 
counselled and grow.
    Mr. Sensenbrenner. Where is the thank you?
    Ms. Jackson Lee. I am thanking for Ms. Harper for her 
words, and Mr. Eden, and hope they will work together so that 
we do not have the disparate treatment of young people, but we 
have secure schools and fair treatment of all young people. I 
yield back. Thank you.
    Mr. Sensenbrenner. Well, okay. Without objection, all 
members will have 5 legislative days to submit additional 
written questions for the witnesses and additional materials 
for the record. And without objection, the hearing is 
adjourned.
    [Whereupon, at 12:54 p.m., the subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
